<html>
<title> - MOVING AMERICA'S FAMILIES FORWARD: SETTING PRIORITIES FOR REDUCING POVERTY AND EXPANDING OPPORTUNITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                   MOVING AMERICA'S FAMILIES FORWARD:
                    SETTING PRIORITIES FOR REDUCING
                   POVERTY AND EXPANDING OPPORTUNITY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                          Serial No. 114-FC13

                               __________

         Printed for the use of the Committee on Ways and Means





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-187                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  












                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff





















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 24, 2016 announcing the hearing..................     2

                               WITNESSES

Tarren Bragdon, Founder and Chief Executive Officer, Foundation 
  for Government Accountability..................................    43
John Engler, President, Business Roundtable......................     5
Olivia Golden, Executive Director, Center for Law and Social 
  Policy (CLASP).................................................    26
Karin VanZant, Executive Director of Life Services, CareSource...    14

                       SUBMISSIONS FOR THE RECORD

A Call To Invest in Our Neighborhoods (ACTION) Campaign..........    93
Catholic Charities USA (CCUSA)...................................    96
Lawrence M. Mead, Visiting Scholar, American Enterprise Institute 
  for Public Policy Research (AEI)...............................   101

 
                   MOVING AMERICA'S FAMILIES FORWARD:
                    SETTING PRIORITIES FOR REDUCING
                   POVERTY AND EXPANDING OPPORTUNITY

                              ----------                              


                         TUESDAY, MAY 24, 2016

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room 1100, Longworth House Office Building, Hon. Kevin Brady 
[Chairman of the Committee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Tuesday, May 17, 2016
No. FC-13

               Brady Announces Full Committee Hearing on

                  ``Moving America's Families Forward:

                Setting Priorities for Reducing Poverty

                      and Expanding Opportunity''

    House Ways and Means Committee Chairman Kevin Brady (R-TX) 
announced today that the Committee will hold a hearing entitled 
``Moving America's Families Forward: Setting Priorities for Reducing 
Poverty and Expanding Opportunity'' on Tuesday, May 24, 2016, at 10:00 
a.m. in Room 1100 of the Longworth House Office Building. This hearing 
will examine how our welfare system can better help more low-income 
American families move out of poverty and up the economic ladder.
      
    Oral testimony at this hearing will be from the invited witnesses 
only. However, any individual or organization may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Tuesday, June 7, 2016. For questions, or if you encounter technical 
problems, please call (202) 225-3943 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be submitted in 
a single document via email, provided in Word format and must not 
exceed a total of 10 pages. Witnesses and submitters are advised that 
the Committee relies on electronic submissions for printing the 
official hearing record.
      
    2. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. The name, 
company, address, telephone, and fax numbers of each witness must be 
included in the body of the email. Please exclude any personal 
identifiable information in the attached submission.
      
    3. Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at 
http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman BRADY. Good morning. The Committee will come to 
order.
    Welcome to the Ways and Means Committee hearing on Moving 
America's Families Forward.
    Today, we are holding our first Full Committee hearing on 
America's welfare system in 10 years. We are doing this because 
the current system is failing to deliver results for those that 
need it most, and it is our responsibility to be part of that 
solution.
    Today's hearing is about people, and right now there are 
more than 46 million people in our Nation who are living in 
poverty. Decades of experience tells us the most effective 
antipoverty program is a job. And of those who are working age 
and in poverty, nearly two in three are not working, many of 
them not by choice, but in large part because of the welfare 
system.
    The current system is a disjointed maze of more than 80 
different programs that have been layered on top of one 
another, with little thought for coordination, duplication or 
purpose. For decades, money has been thrown blindly at the 
system, without a genuine regard for effectiveness in actually 
delivering real results. This approach lacks compassion and 
respect for American families trapped in poverty.
    We need a system that provides more Americans with 
personalized solutions, real paths out of poverty, and better 
opportunities to realize their potential. A critical step in 
achieving that is to define a clear set of principles to guide 
our work. And we believe we have four that do just that.
    First, we will expect work-capable adults to work, or 
prepare for work, in exchange for receiving benefits, because 
it helps to set individuals on a path to long-term employment. 
Second, we will strive to get programs' incentives right. We 
can do that. Recipients, taxpayers, employers, States, and 
nonprofits will all be better off when someone moves from 
welfare to work. Third, we will focus on results of welfare 
programs and do everything possible to ensure they are actually 
helping individuals and families. And fourth, we will seek to 
improve integrity of programs to decrease fraud and preserve 
welfare benefits for those most in need.
    Streamlining and better coordinating the disjointed maze of 
antipoverty programs will not be an easy task. These programs 
span the welfare system, as well as the jurisdiction of several 
congressional committees, including ours. I believe our 
Committee needs to do all it can to advance targeted solutions. 
I know our Members have bold, innovative ideas based on 
solutions being used in their own back yards.
    And most importantly, we all believe everyone should have 
the opportunity to achieve the American dream, Americans like 
Ms. VanZant, who is here to testify today. She escaped the maze 
of the welfare system and now spends her days helping others do 
the same. She joins us as Executive Director of Life Services 
at CareSource, a national nonprofit health management 
organization serving more than 1.4 million Americans. Her work 
is dedicated to helping others navigate barriers to self-
sufficiency so they can move out of poverty and up the economic 
ladder.
    We have a lot we can learn from Ms. VanZant and all the 
witnesses here today. And I am grateful to all of you for being 
here to share your knowledge and help our Committee identify 
solutions to help more Americans move out of poverty and up the 
economic ladder.
    I thank all of our witnesses for joining us today. I look 
forward to your testimony.
    I now yield to the distinguished Ranking Member from 
Michigan, Mr. Levin, for the purposes of an opening statement.
    Mr. LEVIN. Thank you, Mr. Chairman. If I might, a special 
hello to Governor Engler. Nice to see you again.
    Mr. Chairman, reducing poverty is so vital a pursuit that 
the true test is action, not words, especially when the actions 
unmask rhetoric. There is a dramatic disconnect between the 
worthy goals of poverty reduction and the agenda Republicans 
have continually pursued in this and recent Congresses. 
Eliminating food assistance for 13 million Americans, as 
suggested by the latest Republican budget, will not reduce 
poverty and hardship, it will increase it. Cutting childcare 
and other services funded by the Social Services Block Grant, 
which Republicans voted earlier this year to eliminate, will 
not increase opportunity, it will deny it for up to 30 million 
Americans who now depend on the program.
    Jeopardizing healthcare coverage for over 20 million 
Americans by constantly attempting to repeal health reform will 
not help struggling families, it will hurt them. Raising taxes 
on one and a half million working families by eliminating their 
refundable tax credit, as marked up by the Committee, will not 
lift families up, it will push them down.
    Cutting State funding for job training and placement will 
not help workers get good jobs, it will make it harder for them 
to stay competitive. And slashing support for higher education, 
including Pell grants, as required under the Republican budget, 
will not help people climb the economic ladder, it will rip 
that ladder away.
    Our Republican colleagues seem to mistake cutting poverty 
programs with cutting poverty. They woefully ignore analyses 
that show our income security programs reduce poverty by over 
40 percent.
    Indeed, the Republicans can accept some immediate steps 
proposed by Democrats, which Republicans have previously 
blocked, to support work, promote opportunity, and reduce 
poverty. Expand access to quality childcare so that parents can 
go to work without worrying about the well-being of their 
children, improve pathways to education and training so that 
Americans can gain the skills needed to climb into the middle 
class. Reform the parts of our Tax Code that continue to tax 
some working Americans deeper into poverty, childless workers 
with low wages. Strengthen the TANF program so it does a better 
job of supporting families and rewarding work, instead of being 
unduly used for other unrelated purposes. Ensure equal pay for 
women, who now earn an average of 78 cents on the dollar 
compared to men doing the same job. And increase the minimum 
wage, which study after study has shown will reduce poverty.
    The American people are yearning for real action on the 
challenges facing our Nation, rather than glossy reports. And 
no one is more deserving of such a debate than the 47 million 
Americans who now struggle in poverty.
    Thank you, and I yield back.
    Chairman BRADY. Without objection, the Members' opening 
statements will be made part of the record.
    Today's witness panel includes four experts. First, we 
welcome distinguished Governor John Engler, President of the 
Business Roundtable; Ms. Karin VanZant joins us as the 
Executive Director of Life Services at CareSouce; Ms. Olivia 
Golden is the Executive Director of the Center for Law and 
Social Policy; and, finally, we are joined by Mr. Tarren 
Bragdon, who is the Founder and CEO of the Foundation for 
Government Accountability. And we have reserved 5 minutes for 
opening statements.
    We will begin with Governor Engler. You may begin when you 
are ready, sir. Can you hit that microphone, Governor?

                   STATEMENT OF JOHN ENGLER, 
                 PRESIDENT, BUSINESS ROUNDTABLE

    Mr. ENGLER. Good morning, Chairman Brady, Ranking Member 
Levin, Members of the Committee. Thank you for the opportunity 
to be here today.
    My name is John Engler. I serve as President of the 
Business Roundtable, an association of CEOs of leading American 
companies operating in every sector of the U.S. economy. Thank 
you very much for the opportunity to bring this employers' 
perspective today on how America can build on the historic 
achievement of the bipartisan welfare reform of 1996.
    When I last testified to Congress on these issues, it was 
2002, I was Governor of Michigan and Chairman of the National 
Governors Association. I stressed that effective welfare reform 
depended on Washington setting overarching goals and leaving 
specifics to the States. This remains as true today as in 1996, 
when we eliminated the old and failed AFDC program. Back then, 
education and job training were critical. Today, our high-tech 
economy has raised the stakes.
    We face serious challenges. The NAEP score, our Nation's 
report card, shows that just 37 percent of high school 
graduates scored at the college-ready level for reading and 
mathematics. This means too many young people are graduating 
who are not ready for their first job or college without 
remediation. This lack of preparedness can be a leading 
disadvantage and a lasting disadvantage in college and in the 
job market.
    Consider this. A recent Gallup survey asked, are graduates 
prepared for work? Ninety-six percent of chief academic 
officers said, yes. In contrast, only 11 percent of business 
leaders said these graduates are prepared for work.
    So what can the public sector do to reverse these results 
and close this preparedness gap? Reform should focus on putting 
people on pathways to work. The Chairman just said this in his 
opening statement, but a job is better than no job. And then, 
when someone goes to work, we need to prepare them for careers. 
Everyone needs competencies that are valued in the workplace.
    Next, we need to create a more efficient system for 
delivering government assistance that is flexible and 
encourages people to find and keep employment. The forthcoming 
reauthorizations of TANF, Perkins Act and the Higher Education 
Act offer an unprecedented opportunity for more effective, 
better-managed strategies at the State and regional level. At 
the same time, Congress should insist on metrics and data 
transparency to evaluate which programs should be continued, 
consolidated or eliminated. Realtime labor market data is also 
essential to help individuals know where the opportunities are 
and what skills will be required.
    Congress should also continue, we believe, to offer 
incentives to aid workers when seeking necessary education and 
training that can lead to employment. This can, as has been 
mentioned, include assistance with childcare, transportation, 
or counseling. Business leaders are quite passionate about 
better connecting the worlds of learning and work, and we 
believe that starts early with rigorous education standards and 
the first milestone, ensuring that all students are reading at 
grade level by the end of the third grade. That is when we know 
our investments in pre-K are paying off.
    We have no choice. If a student can't read, how will he or 
she be able to master the STEM fields? Our CEOs know firsthand 
that their companies need many more employees knowledgeable in 
science, technology, engineering and mathematics. As for STEM 
careers themselves, Business Roundtable leads a national 
network of business and industry associations. We bring 
together business and industry groups to help educators better 
understand what competencies employers are looking for in 
today's world.
    Today, credentials are often used to represent competency. 
There is an urgent need to bring full transparency to the world 
of credentialing so that individuals of any age can be assured 
that what they are purchasing, regardless if out of their own 
pocket or if they are borrowing or even if they are getting a 
grant from the government, is an investment that will help them 
get a good job.
    Done right, transparency can also help job seekers identify 
the program best suited for them. Today, employers are also 
actively partnering with institutions of higher education, 
helping them develop curricula to teach competencies essential 
to the twenty-first century workforce.
    The public and private sectors must continue to work 
together to ensure a variety of models exist that can provide 
individuals the competencies that can put them first into a job 
and ultimately on to a career pathway where they can support 
themselves and their family.
    And finally, I think that it is important that I state for 
the record, not everyone needs to go to college to be 
successful. At the same time, this is America. Everyone can 
aspire to go to college if they wish, but they should choose 
with the knowledge that it is increasingly likely that the job 
market of the twenty-first century will be shifting to focus 
more on competencies than degrees. Credentials will reflect 
what you have mastered, rather than where or what you have 
studied.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. Engler follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                                   <F-dash>




    Chairman BRADY. Thank you, Governor.
    Ms. VanZant, you may begin.

                  STATEMENT OF KARIN VANZANT, 
        EXECUTIVE DIRECTOR OF LIFE SERVICES, CARESOURCE

    Ms. VANZANT. Chairman Brady, Ranking Member Levin and 
Members of the Committee, thank you for the opportunity to 
testify and to help you explore this extremely important topic 
of how to assist low-income Americans as they transition off of 
government subsidies into a higher quality of life, health and 
well-being.
    My name is Karin VanZant. I am the Executive Director of 
Life Services at CareSource, a managed care organization based 
in Dayton, Ohio. CareSource provides health coverage and 
assistance to 1.5 million Americans in Ohio, Kentucky, Indiana, 
and West Virginia, offering services through Medicaid, the 
healthcare exchange, and Medicare Advantage.
    My responsibility is to help CareSource transform how it 
approaches health care. For 27 years, we have worked with our 
members to coordinate their care and have come to deeply 
understand their complex social needs. We have a new strategic 
focus to help people move from poverty to self-sufficiency. 
Life Services is our new model that brings together health, 
economic stability and social well-being for our members, 
something that they tell us has never happened before. And I 
can attest to that from first-hand experience.
    While a junior in college, I found myself pregnant 
unexpectedly. I signed up for Medicaid and soon was on full-
blown welfare. I quickly learned that people treated me 
differently when I asked for help, and I could have easily 
fallen into the trap of poverty if I had listened to the advice 
of many of my case managers, and if I didn't have incredible 
support from my family.
    In my 4-year journey to come off of government assistance, 
I completed my degree in social work and began working to fix 
the disconnected, broken system that I experienced. The system 
is well intentioned but misaligned, with government programs 
that are failing to move Americans out of a life of subsidy 
dependence. I think we all know intuitively what isn't working 
for almost 46 million Americans, low-income Americans.
    We know that they have created a system that does a fairly 
good job of administering programs. But these programs do not 
move people to a life of independence. We pay for following the 
rules. And, quite frankly, we pay for one maintaining poverty 
status as long as possible.
    The CareSource Life Services program is a unique approach 
that couples the largest low-income safety net, Medicaid, with 
a holistic method to addressing economic and social well-being. 
Many of our members have told us that a job will change their 
lives and improve their health. We listened, and focused our 
efforts on the retention of work, the advancement of an 
individual's skills, and the ability to connect people to 
appropriate resources in the places that they live.
    Life Services staff help our members to stabilize, identify 
their strengths and prioritize their goals. As members' lives 
stabilize, they are connected with education or employment 
opportunities. Once employed, our members meet with a life 
coach that helps them navigate the world of work as well as 
numerous subsidy cliffs.
    In the past 15 months, CareSource Life Services has worked 
with approximately 850 members in an eight-county region in 
southwest Ohio. To date, 150 members have started education 
programs; 190 members are actively working with employers to 
obtain one of the 2,000 open positions by our 37 employer 
partners; 124 members have started full-time employment, with 
85 percent of them eligible for employer-sponsored insurance; 
and we have a 95 percent retention rate at 90 days, with 10 
percent of our members actually being promoted in the first 
year of employment.
    The experiences have been life changing for the 
individuals, as well as my team. Not to mention the significant 
State and Federal cost savings.
    Now let me tell you how this actually works for a member. 
In June of last year, we held a public job fair that introduced 
Life Services to our members. One member, Josh, arrived 
intoxicated. We offered him coffee and simply began to talk to 
him about his life. The next day, Josh received a phone call 
from CareSource care management team. Josh agreed that he 
needed help and began working with a care manager. Within 6 
months, he had seen a primary care physician, a dentist, 
started AA and was in counseling. Throughout this period of 
time, he continued to work with the life coach and started to 
set employment goals. At 6 months of sobriety, Josh was ready 
for work. It took only one interview and Josh was offered a 
$13-an-hour position at a local manufacturer, ending a 4-year 
period of unemployment for him.
    Yes, Josh could have accomplished any of these things on 
his own, but he had not. He tells us that he didn't know what 
to tackle first.
    In closing, I would like to emphasize, many of those who 
are in the Medicaid population are eager to work, but they need 
guidance and support. And by addressing physical health, 
economic stability and social well-being, amazing 
transformations can happen quickly, and the CareSource Life 
Services model is a demonstration of what is working for our 
members.
    I thank you for the opportunity to speak with you today and 
I am happy to answer any questions.
    [The prepared statement of Ms. VanZant follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
     


                                 <F-dash>
    Chairman BRADY. Thank you.
    Ms. Golden, please proceed.

STATEMENT OF OLIVIA GOLDEN, EXECUTIVE DIRECTOR, CENTER FOR LAW 
                   AND SOCIAL POLICY (CLASP)

    Ms. GOLDEN. Chairman Brady, Ranking Member Levin and 
Members of the Committee, thank you so much for the opportunity 
to testify.
    I am the Executive Director of the Center for Law and 
Social Policy, an antipoverty organization that promotes 
effective Federal and State policies, and I have administered 
human services programs in New York State, Massachusetts, the 
District of Columbia and at the Federal level, as well as 
studied their effectiveness as a researcher.
    My written testimony makes three major points. First, the 
Nation's core economic security programs are highly effective. 
They cut poverty almost in half, improve nutrition and health 
care for millions of people and promote work.
    Moreover, a growing body of rigorous research shows that 
these supports have positive effects on children's health, work 
trajectory and income many years later. So there is a two-
generational effect. For example, expanding health insurance 
coverage for low-income children has large effects on high 
school completion, college attendance and college completion. 
And having access to SNAP in early childhood improves adult 
outcomes, including health and economic self-sufficiency.
    Research also indicates overwhelmingly that these programs 
support work, particularly for low-income parents. What 
typically holds people back from working is not too much 
support, but too little, such as the absence of help with 
childcare.
    In my written testimony, I cite evidence from rigorous 
studies by many researchers using different methods, and all 
showing that childcare subsidies, the earned income tax credit 
and the full package of benefits, including health and food 
assistance, support more work and steadier work over time.
    I also cite recent steps to improve support for work, 
including the choice made by 31 States, including Ohio, to 
expand Medicaid under the Affordable Care Act, which means that 
parents and other low-income individuals in these States no 
longer have to fear that taking a job will eliminate their 
access to health coverage.
    The second major point is that changes in the economy which 
have fostered low-wage and unstable jobs mean that high 
employment rates do not translate into low poverty rates. These 
changes have affected a wide range of working Americans, but 
their greatest impact has been on low-wage workers. In 
addition, remaining gaps in the safety net also lead to 
economic distress and lost opportunities for workers to succeed 
and children to thrive.
    Third, to reduce poverty and expand opportunity, Congress 
should avoid bad ideas, those that are demonstrably harmful, 
and should seize opportunities that build on research and 
experience.
    Starting with the bad ideas, all the available experience 
with block grants suggests they don't work for core safety net 
programs. Their appropriations shrink drastically over time, 
fully one-third in the case of the TANF block grant, and they 
cannot respond to economic downturns. During the recent great 
recession, SNAP and Medicaid, which are not block grants, 
provided greater support to States, communities and families as 
need rose. On the other hand, the capped TANF block grant left 
families and States without resources just when they needed 
help most.
    Flexibility doesn't solve this problem. For example, the 
Child Care and Development block grant is highly flexible. But 
because of capped Federal funding, the number of children 
served has hit the lowest number in more than a decade. Too 
much flexibility also risks diverting funds from programs' core 
mission, as is evident in TANF. And block grants are ill-suited 
to supporting nationwide goals like ensuring that every 
American starts life healthy and well nourished, but instead 
contribute to disparate life chances based on where a child is 
born.
    Another bad idea is so-called work requirements that are 
counterproductive, do not build on the best available evidence 
about what works, or that cut off people even though they want 
to work, as in the SNAP time limits for able-bodied adults 
without dependents. My testimony summarizes the provisions 
about what kinds of strategies truly support work and which 
don't.
    In conclusion, to truly reduce poverty and promote 
opportunity, Congress needs to tackle the economic headwinds 
facing workers and fill remaining gaps in the safety net. My 
testimony proposes five next steps. Ensure access to high-
quality childcare and early education. I think Governor Engler 
highlighted that as well. Expand access to effective workforce 
development programs and career opportunities. Tear down 
financial barriers to post-secondary success. Fix gaps in the 
safety net for the neediest Americans. And establish minimum 
standards for wages, a stronger minimum wage, and for job 
quality so jobs support rather than destabilize families.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Ms. Golden follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
 

                                 <F-dash>
    Chairman BRADY. Thank you.
    Mr. Bragdon, please proceed with your testimony.

   STATEMENT OF TARREN BRAGDON, FOUNDER AND CHIEF EXECUTIVE 
       OFFICER, FOUNDATION FOR GOVERNMENT ACCOUNTABILITY

    Mr. BRAGDON. Thank you. Mr. Chairman, Ranking Member Levin 
and Members of the Committee, thank you for the opportunity to 
testify. I am Tarren Bragdon, the Founder and CEO of the 
Foundation for Government Accountability, a nonpartisan, 
multistate policy organization that works with State leaders 
across America to free individuals from poverty through proven 
welfare reforms.
    All of us are here because we want the same thing, to help 
as many families as possible escape poverty as quickly as 
possible. The best way to do this, and to solve many of the 
other challenges welfare programs currently face, is through a 
simple but powerful tool that must be core to any welfare 
reform conversation. Work.
    But here is the fundamental problem with the welfare reform 
conversation. It is a debate dominated by rhetoric and 
anecdote. Fifty years ago, Congress and President Johnson tried 
to answer the question of how do you end poverty. But the sad 
truth is that strategy has failed. But the tragedy of the 
failed welfare state is not how much money is being spent, the 
real tragedy is how many families are being trapped in poverty 
for far too long, sometimes generations.
    So how do you get somebody out of poverty as quickly as 
possible? In 1996, Congress and the President in a bipartisan 
way took this problem head on, requiring able-bodied, childless 
adults to work in order to receive food stamps, working 20 
hours a week or volunteering. And if they refused, they would 
have to cycle off the program after 3 months. But Republican 
and Democrat Administrations allowed States to waive these 
requirements. But thankfully, several Governors are restoring 
them. And I will focus my comments on two States, Kansas, which 
restored them in 2013, and Maine, which followed in 2014.
    We launched an effort in Kansas to track the 41,000 people 
impacted by this policy change with the largest study of its 
kind, matching those who were on welfare with the State's 
Department of Labor hiring and earnings database to see what 
happened after the policy change. Maine replicated this 
methodology for 10,000.
    The results are inspiring and we no longer have to rely on 
speculation or anecdotes. But we can see how commonsense work 
requirements worked. And the results proved that the bipartisan 
effort of Congress 20 years ago was on the right track.
    Before Kansas restored work requirements, recipients on 
average received about $200 a month in food stamps, whether 
they worked or not, and most did not. But for those who refused 
to meet the work requirement and were transitioned off welfare, 
guess what happened next? They went to work in record numbers, 
half right away and 60 percent within a year. And not only did 
they go to work, but average income of workers doubled and the 
average income is now above the poverty line. Maine saw a 
similar success, all of this within 12 months of the work 
requirement being reinstated.
    And even those who stayed on welfare were better off. 
Enrollees were more likely to be working, more likely to be 
working more hours. Incomes increased, and the average time 
that somebody spent on welfare was cut in half.
    Simply by following the work requirement you established 20 
years ago caused enrollment for these adults to drop by up to 
90 percent. Because people literally transformed themselves 
through work, earning hope, higher income and a brighter 
future.
    This paints a clear, inspiring and simple roadmap to 
Federal welfare reform. And it is a road that Congress has 
already traveled.
    If Congress could do just one thing, it should be to add 
these commonsense work requirements and time limits to most of 
the 80-plus means-tested welfare programs for all nondisabled 
working-age adults. And here is another important thing to 
consider. This reform frees up limited resources to help the 
truly needy, including the more than 600,000 Americans who have 
intellectual disabilities or are in frail health, waiting for 
Medicaid waiver services. And fortunately, these are also 
incredibly popular bipartisan reforms, with 82 percent of 
Americans supporting work requirements. This is an American 
thing.
    It turns out that work works. You set the standard 20 years 
ago, and I am here today to ask you to finish what you started.
    Thank you. My written testimony highlights in much more 
detail. I have attached the reports and some of the key 
takeaways as well. And I would be pleased to answer any 
questions that you have.
    [The prepared statement of Mr. Bragdon follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

                                 <F-dash>
    Chairman BRADY. Great. Thanks, Mr. Bragdon. Thank you all 
for your excellent testimony.
    So we will now proceed with the question-and-answer 
session, and I will begin.
    And I want to really talk about the difference between 
alleviating the symptoms of poverty, sort of the old school 
approach, versus addressing the causes of poverty. Under our 
current, outdated, old system, a person in need comes in and we 
provide assistance to meet their immediate needs, be it 
housing, food, whatever, and then send them on their way. Next 
month, 6 months, a year later, the same person comes in, still 
in need of help. We haven't helped them move up the economic 
ladder, or even helped them to grab onto the first rung, as 
Governor Engler pointed out. What I have realized, we often 
alleviate the symptoms of poverty, we don't really address the 
underlying reason why they need the help in the first place. 
That is what we are interested in.
    Ms. VanZant, your organization helps low-income individuals 
and families with more than just their short-term needs. You 
remind me of my sister, who runs a faith-based homeless program 
in Humble, Texas, called Family Promise of Lake Houston, that 
focuses one by one on homeless families, gets them into that 
job, into that apartment, onto their feet, really focusing, as 
your organization does, on their needs longer-term in 
addressing them.
    So from your standpoint, what are the specific things you 
do to help people escape poverty? What should be our priority?
    Ms. VANZANT. Mr. Chairman, thank you for the question. 
Members of the Committee, one of the things that I have seen in 
the 20 years of working with low-income individuals across the 
country is many times they are not listened to. And so we tend 
to build programs that are one-size-fits-all types of programs, 
and every one of the 46 million Americans has a different life 
path and different experiences.
    And so what we are trying to do, albeit in an individual 
way, and to make it scalable, is really listen to what's going 
on in the lives of our members. And then we have a three-prong 
approach.
    We believe, if you think about a stool, it's like three 
legs of the stool. You need to have good physical health, you 
need to have good economic health, and then you have to be 
connected to the place that you live in some way, whether that 
is through a church organization or a civic organization, a 
school or a job. You need to have relationships in your life. 
And when we can focus on all three of those things, we really 
can start to customize what are the needed supports to move 
people forward.
    We also know that, as people are moving forward, as they 
define their goals, as they stabilize in their life 
circumstances and as they are connected with resources, they 
are going to approach a subsidy cliff. And we want them to be 
well informed of that. It is very difficult to know what the 
eligibility requirements are and when the subsidies are going 
to decrease. And so we want our members to be well informed of 
what is coming ahead. How can that social connectedness or 
those community resources be a backfill until we can really 
restructure some of the policies that can support the 
transition off of government subsidies and into a fulfilled 
life of work and purpose.
    Chairman BRADY. So addressing the cliff and really creating 
a glide path, you know, not just to reach for that first rung 
but to be able to stay on that first rung as they work their 
way up is important?
    Ms. VANZANT. It is very important. You know, I think we all 
know that some of the faces that our families are making as 
they want to move out of a life of subsidy or out of a life of 
subsidy into prosperity are they are going to have to start 
somewhere. We all had to start somewhere. And it is going to 
take time, once you start in the lower wage jobs, to be able to 
build your skills, build your longevity and credibility with an 
employer to get to the higher wage jobs.
    The graphic that we provided to you as a part of our 
testimony packet shows that many of our members have the same 
type of purchase power at $12 an hour as they do at $18 to $20 
an hour. And so we really have to continue to find the right 
types of incentives, the right levels of incentives so they can 
move from $12 an hour to $18 an hour, and they have enough time 
and enough education to be able to fill that gap. Because 
without the same purchase power, any one of us would probably 
go back to a life that we know, instead of continuing to be on 
that ladder moving upward.
    We're also trying to help our members with the right kinds 
of creative supports so that they can keep taking those 
positive steps upward.
    Chairman BRADY. Thank you very much.
    Governor, from the business perspective, in your experience 
as the CEO of a State, how do we get the incentives right for 
those who really need to get back, to expect work, to get the 
incentives aligned right? Your top priority for us?
    Mr. ENGLER. In getting the incentives right, Ms. VanZant's 
testimony is really important because these cliffs that people 
encounter along the way, if we go back to the decision when we 
eliminated the old AFDC program, we used to have something, I 
know Chairman Rangel in the old days will remember, income 
disregards. And those used to be a terrible system. When you 
basically hit the workforce, you started earning money, 
immediately when you got a dollar, they took a dollar away from 
the grant.
    And we had to change that to create incentives. And these 
incentives have to be allowing someone to constantly earn more 
money. Because people are smart. If they can earn more money, 
they will choose to do to. And so that is important.
    The most important thing, though, that I think we have to 
do may not even be this Committee's specific responsibility, 
but it's America's responsibility. And that is, we have to 
interrupt the cycle. We are spending $650 billion on our K 
through 12 education programs and the Nation's report card, as 
I mentioned, is indicating 36 percent of American children at 
the end of the third grade can read proficiently. If America 
can't teach its kids to read, I am questioning whether or not 
America can end poverty.
    I think we can teach kids to read. We do it in schools 
where there is 100 percent population free and reduced school 
lunch. But I think as a national priority, and this is a State 
and local responsibility, but it is on the national agenda, we 
have to teach our kids to read. If kids can't read, I mean, we 
know where the supply line is then for the future.
    Chairman BRADY. Governor, thank you. Mr. Bragdon, do you 
believe our current and past work of welfare and tax benefit 
programs, you know, some 80 plus, provide an effective ladder 
of opportunity to the middle class for those to try and work 
off welfare? And does cutting through that and really focusing 
on important priorities like a work requirement for work 
capable, is that really the key?
    Mr. BRAGDON. Yes, Mr. Chairman, I really think it is. 
Because we know that the best way for an individual to get out 
of poverty is to be working full time year round. Less than 3 
percent of those who are working full time year round are in 
poverty.
    But unfortunately, what happens in most welfare programs is 
we are paying people not to work, rather than pointing them 
back to work and getting them back in the workforce as quickly 
as possible. And that is why the research from the largest ever 
tracking studies in Kansas and Maine really show the power of 
that simple but very direct reform of a work requirement, gets 
people back to work. And it is not a stopping point. If you 
look at the research, their income is improving every quarter, 
they are changing into better and better jobs, and they are 
earning the success that will ultimately give them the hope of 
a better life.
    Chairman BRADY. Thank you, sir.
    I now recognize the Senior Ranking Member from Michigan, 
Mr. Levin, for any questions.
    Mr. LEVIN. I must confess I find the discussion we just 
heard appalling, that we are paying people not to work, when we 
have proposals that would help people who are working opposed, 
whether it is childcare, whether it is education, Pell grants, 
whether it is Head Start. It is appalling to characterize those 
programs that way.
    Ms. VanZant, your organization very much relies on 
Medicaid, yes?
    Mr. Bragdon, was your organization involved in the effort 
in Florida to not utilize expanded Medicaid?
    Mr. BRAGDON. Yes, we talked about what happens when you 
expand the safety net.
    Mr. LEVIN. The answer is yes. Your organization on your 
website brags about opposition to expanding Medicaid in 
Florida, no?
    Mr. BRAGDON. Yes, we were involved in that fight.
    Mr. LEVIN. You were actively involved in that effort, were 
you not?
    Mr. BRAGDON. Yes.
    Mr. LEVIN. You are a 501(c)(3)?
    Mr. BRAGDON. Yes.
    Mr. LEVIN. You are a charitable organization?
    Mr. BRAGDON. Yes.
    Mr. LEVIN. And you were actively involved in that effort. 
How many people in Florida, because Florida did not expand 
Medicaid, do not receive Medicaid today? Do you know how many 
hundreds of thousands?
    Mr. BRAGDON. Well, there is a whole range of estimates, but 
it is anywhere from 600,000 to a million. But for us, it is 
about taking care of the truly needy first.
    Mr. LEVIN. I see.
    Mr. BRAGDON. Florida has a waiting list of individuals with 
intellectual and developmental disabilities. And we really 
think it is about prioritizing the truly needy first, rather 
than giving Medicaid coverage to able-bodied adults who, if 
they were working full time at a minimum wage job, wouldn't 
qualify for that benefit. And we think for those adults, the 
best path out of poverty is not a Medicaid card but it is a 
job.
    Mr. LEVIN. Ms. Golden.
    Ms. GOLDEN. I just wanted to correct a few things along the 
lines you are talking about. First of all, the relationship of 
Medicaid to work. I think what I would highlight is that the 
Medicaid expansion in the 31 States has been of extraordinary 
importance to working poor adults. That is a lot of who hasten 
those benefits.
    Mr. LEVIN. By the way, Ms. VanZant is shaking her head in 
agreement.
    Ms. GOLDEN. Yes. And I think the story in Ms. VanZant's 
testimony about Josh, what, as I understand it, you were able 
to do was, because he had access to that Medicaid safety net, 
he was able to get to a doctor and a dentist and deal with his 
health.
    So to me, health care is a crucial basis for getting a job. 
That is what the evidence says. There is a new study that just 
came out from the National Bureau of Economic Research that 
says expansion States can show more days of work because, not 
surprisingly, you are able to go to the doctor, you are able to 
get treatment, you are able to go to work.
    In addition, I do want to note the two generational 
effects. You get Medicaid, you have nutrition for your child. 
It is not only that it stabilizes your ability to go to work, 
it is that research is increasingly showing advantages to your 
child's work later on.
    And I think there is lots more to say about the challenges 
in the studies that Mr. Bragdon cited. But I just want to say 
one other thing about the research on the safety net and work. 
Most people who are getting help right now, from SNAP, from 
Medicaid, everybody getting help from the earned income tax 
credit, are working. They are working in low-wage jobs or are 
getting insufficient hours. But in order to make ends meet, 
they are also getting some help.
    The evidence says that stabilizes their lives and enables 
them to move up. And I think it is important that the stories 
about ways in which it might hold people back usually are based 
on a picture of the safety net from 20 years ago, before the 
earned income tax credit, which increases with people's 
earnings, was as powerful as it is today, before the Affordable 
Care Act created the Medicaid expansion and then the subsidies. 
And so the current safety net, in fact, is a crucial stabilizer 
and support for people as they move up.
    Mr. LEVIN. My time is up. I just want to reiterate just the 
two of you sitting next to each other I think shows this effort 
to dichotomize is dangerous.
    By the way, in terms of TANF, in Michigan, we are using so 
little of the TANF monies in relationship to work, Governor, 
today it is disgraceful. They are using it for everything but, 
in most cases.
    Chairman BRADY. Thank you. Mr. Johnson, you are recognized.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    You know, I would like to thank all of you for being here, 
by the way. And as the program's name reflects, the Temporary 
Assistance for Needy Families is meant to be a safety net for 
families that find themselves in need. But the solution is not 
just to continue providing benefits and hope that it will be a 
solution. But the solution is to empower these families to be 
able to enter the workforce, not just so they can provide for 
their family but so they can have a chance for the American 
dream.
    Ms. VanZant, I would like to start with a question to you. 
Do you believe our welfare and antipoverty programs are working 
as intended to address the core issues, such as unemployment, 
that result in these families living in poverty?
    Ms. VANZANT. Mr. Johnson, that is a complex question and 
part of my answer is based on both my personal experience and 
the experience that I have had with thousands of low-income 
Americans across the country.
    I believe that many of the safety net programs were put in 
place to be a temporary solution for people that fell into 
situational circumstances that needed a little bit of help. And 
I also believe that what we have are some families that are 
four generations into living in these temporary solutions and 
have created such a dependency that is so hard to break, when 
you have seen what your parents have done and what your 
grandparents have done.
    And so I believe that, yes, we do need safety net programs 
because we do know that there are going to be situations that 
any one of us could fall into where we will need a little bit 
of help. But I also believe that we need to be able to quickly 
move people out of the programs and into a life of work and 
into a higher quality of life that employment can bring.
    Mr. JOHNSON. Thank you, ma'am.
    Governor Engler, as Governor, you oversaw Michigan's 
implementation of welfare reform and now you have a different 
view of these programs from the private sector. Can you discuss 
what you think has been the most successful reform for getting 
these families out of poverty by promoting work?
    Mr. ENGLER. There are two aspects to that. One is you need 
a good strong economy, which I know is a priority of this 
Committee. And there are a lot of things that could be done. 
Right now, our Nation is suffering from the worst recovery from 
a deep recession we have ever had, historically speaking, and 
we are underperforming against both trend and certainly against 
potential. And so there are a set of things over there.
    But regardless of the economy, there are always 
opportunities. And you are correct, Congressman, in 1996, 1997, 
1998, after welfare reform was done in the Congress, and 
remember that was a labor that this Committee worked very hard 
on back then, two times it went up and was vetoed. On the third 
time, the Medicaid block grant was removed and then the 
President signed it, and that was President Clinton. And it was 
bipartisan throughout the process. It was complicated and it 
was noisy. But we got it done.
    And what happened is the States at that point had 
tremendous flexibility. And I remember Michigan had quite a 
competition with Wisconsin going those days and we had Governor 
Thompson, who certainly fancied himself a welfare reformer, and 
we thought we could compete pretty well in Michigan.
    But our goal was to use the flexibility that we had to be 
able to develop solutions. And this is where, again, Ms. 
VanZant's personal testimony is important, about her personal 
experiences. These solutions are going to be different.
    And that is why no Committee of Congress can figure out one 
size that fits all for all of America. It is different in the 
State of Michigan. It is very different to put somebody to work 
on the Upper Peninsula of Michigan than it is in the city of 
Detroit or West Michigan. And so there are lots of different 
stories and you have to have a workforce in your human services 
agencies who can use all of the tools. Because it might be 
mental health services, it might be a medical need, it might be 
an education need. It might be personal needs, it might be 
personal care. It might be transportation. Any of these could 
be the barrier.
    And we felt getting someone connected to the workforce, 
even if it was a volunteer, would lead to the first job, could 
lead to the second job. But we thought any job was better than 
no job.
    Mr. JOHNSON. That is absolutely correct. Thank you, 
Governor.
    Mr. Chairman, I yield back.
    Chairman BRADY. Thank you.
    Mr. Rangel, you are recognized.
    Mr. RANGEL. Mr. Chairman, thank you so much for calling 
this hearing. And I want to thank all of the witnesses for 
coming forward. And, Governor, it is good to see you again, 
because no matter what differences one might have with you, we 
all know that it is a common goal to make America stronger. And 
all of the witnesses are working toward that goal, I 
understand, especially Ms. VanZant when she says one size 
doesn't fit all and you can't have just a blanket policy, Ms. 
Golden with years of working. I regret that I am not familiar 
with Mr. Bragdon's work. But I understand you fought hard to 
keep people from getting on Medicaid. We will talk about that 
another time.
    But, Governor, the most important thing you said that 
impressed me is that we have to train people who are not 
working, not productive, for jobs that we are begging for 
people to have these skills in order to work. So if we get rid 
of the do-gooders and the charitable organizations and get down 
to the Business Roundtable, where people have a fiduciary 
relationship to shareholders to make certain they make a 
profit, it would seem to me that the employers would do all 
that they can to make certain they have a workforce so that 
they can effectively compete with all nations and within our 
own borders. To do this, you don't have to be a social worker 
to know that poverty just doesn't work in terms of getting a 
decent education, a family setting, a decent school, or the 
proper training.
    And if American businesses go and they see this situation, 
you don't have to go to church to find out we have to do 
something to improve that. The private sector should be telling 
these schools what they need, besides just a diploma, and 
providing the incentives and getting into the schools and 
making certain that we can shatter the myth that people don't 
like to work. It is absolutely stupid to say that: Working 
gives you self-esteem, it gives you pride, it gives you family 
unity, it keeps you out of trouble, it gives you health, and it 
gives you what it is like to be an American.
    So let's talk about the Business Roundtable and see whether 
we can get together before this great President leaves office 
with some pilot projects that say that diplomas are not nearly 
good enough at getting a job. And this is what you said. We 
have people out there that, just because they don't have the 
skills, it doesn't mean that they are bums. Because if it did, 
when I got out of the Army, I had more medals than you could 
get. I was a bum because I had no skills except killing people. 
And the G.I. Bill made the difference for so many Americans.
    I am going to get together with you. It is good to see you 
back into this. And I don't see where there is any conflict in 
trying to get people out of poverty, getting them an education 
and get to what we want for all of our people. It is good to 
see you again.
    And thank you, Mr. Chairman, for calling this meeting. And 
I hope that this hearing is not just an excuse to cut things 
and to be negative, but to find out how we can better use our 
resources for a better country. Thank you so much.
    Mr. ENGLER. I think there is a question in there. But I 
would like to comment. There is a minute left.
    Mr. RANGEL. Yes.
    Mr. ENGLER. Because I saw that beautiful portrait and those 
medals up there, I know we have the same interest. You have the 
military as a very large employer under the public 
responsibility of the Congress. Today in America, three of four 
young people cannot get into the military. Half cannot get 
there academically, the other half cannot get there physically, 
so we are at one in four. So that is the workforce for the 
military. It is the same workforce that the Business Roundtable 
is concerned about.
    And so we have exactly the same interests. We would love to 
work with you. We have to get all these kids reading. That is 
something that has to happen. America can teach its kids to 
read.
    We do not need to tell everyone that it is mandatory to go 
to college, because we have a lot of jobs out there requiring 
skills. You want to climb a pole to string a wire, you can make 
$80,000 to $100,000 a year today, and we are looking for those 
people. A company in Iowa, I can connect, if anybody has 
constituents, we have an address of that company, we can get 
you to them.
    If you want to weld, the American Welding Society has the 
highest possible credentials. If you get trained as a welder 
today, even with the oil industry in a bit of a slump, there 
are still welding jobs all over America. And those can make you 
$65,000 to $85,000 a year. You do not need college for those, 
but you have to have the skill, you actually have to be able to 
weld. And so, if we get busy on infrastructure--I am over 
time--but then there is also a huge training opportunity we can 
do along with that. So we have the same, we are simpatico.
    Chairman BRADY. Thank you, Governor.
    Mr. Tiberi, you are recognized.
    Mr. TIBERI. Thank you, Mr. Chairman.
    Today's hearing is about how we get families, individuals 
off of the social safety net into the workforce. That should 
not be a partisan issue. I think we all agree over the last 50 
years, it has not worked so well.
    I think about my own life. I was on the free and reduced 
lunch program. There are more kids in the Columbus school on 
the free and reduced lunch program today than there were when I 
was a kid. There is a bigger need for affordable housing today 
than when I was a kid. There are more people who want a job 
that cannot get a job today than when I was a kid, in my 
community. And yet we have spent millions and millions and 
millions of dollars at the Federal and State level.
    Ms. VanZant, God bless you. You put a face behind reality. 
And you have shown that it can work, and you have transitioned 
from your own experience to trying to help others. I have 
looked people in the eye, to your point, who have been provided 
all sorts of opportunity and have this glazed look in their eye 
because they are trapped in poverty, trapped in poverty.
    Mr. RANGEL. It is misdirected.
    Mr. TIBERI. And it is not misdirected, Mr. Rangel. We all 
care about trying to get people out of poverty. But trying to 
think outside of the box is not mean and disgraceful, it is 
trying to figure out what works.
    You know, one of the things that I just did with 
Representative Kind on a bipartisan basis is introduce a bill 
called Investing in Opportunity Act. Mr. Engler, I would like 
to have you take a look at it. Because what it simply does is 
it says we have distressed communities, by the way, both urban 
and rural, throughout America. And a new report came out 
yesterday by a bipartisan think tank that said three out of 
every 10 U.S. counties in America continued to lose jobs after 
the great recession between 2010 and 2014. That is a third of 
our counties have continued to lose jobs. And what are they? 
They are our distressed counties. They are our poorest 
counties. They are urban and they are rural. What do they lack? 
They lack private investment. They lack jobs.
    So we can continue to throw money. But if a person does not 
have a job, they are not going to get out of poverty, to your 
point, Ms. VanZant.
    But, Mr. Engler, to go even further, this is unbelievable. 
The percentage of U.S. counties seeing more businesses close 
than open has tripled since the 1990s, those same counties. I 
get a call from a third generation businessowner in Columbus, 
Ohio, last week, after the Vice President visited our county to 
announce some overtime rules, that said this rule--and I am not 
making this up, we could call him to testify--this rule is 
actually going to reduce the number of jobs that we have.
    So here is a regulation, a well intended one, by the way, 
that is actually going to affect the very people who we are 
talking about today.
    So, Mr. Engler, you were Governor. How did you engage the 
private sector? How do we better engage the private sector in 
areas that need it most, those distressed communities in rural 
and urban America that have the highest unemployment rates, 
that have the highest number of people on our social safety 
network? And, in particular, how do we ensure that opportunity 
reaches those individuals that Ms. VanZant talked about?
    Mr. ENGLER. Well, we had, at one point in the 1990s, we had 
our unemployment rate down to about 3.3 percent in Michigan. 
But there were a lot of things going on. We had gotten very 
noncompetitive as a State, so we were changing the Tax Code, we 
were trying to improve the education system, we were trying to 
improve other services. And we tried to reduce the cost of 
government. We shrunk nonpublic safety employees in the 
government by almost 20 percent during a decade long period.
    So you have to have this healthy private sector. And you 
mentioned it. I mean, you mentioned small business. For the 
first time in history, we had three consecutive years where we 
lost, more small businesses closed their doors than opened 
them. That has never been the case. And that was not the case 
in 2008 and 2009, that was a couple of years ago. I think last 
year, it might have turned. We had three years in a row. Never 
had had that. Small businesses are job engines. Small business 
is where a lot of people can get started without a lot of 
experience.
    We also engaged the private sector to work with a lot of 
the volunteer agencies. We found in some cases getting somebody 
to go to Goodwill, start working there, was a way back into the 
workforce. And then that little bit of training gave them some 
job experience that could let them go to the hardware store and 
maybe work there or the drug store. It is all hands on deck 
when you are trying to deal with this.
    Chairman BRADY. Thank you. Dr. McDermott, you are 
recognized.
    Mr. MCDERMOTT. Thank you, Mr. Chairman, for calling this 
Committee. I know we are starting the Paul Ryan for President 
campaign, conservatives are now very compassionate. But the 
text for today's Committee ought to be from Matthew 7:15. We 
will know them by the fruits that they produce.
    And you bring a witness here today whose website brags, 
``Across the country, our efforts kept 20 States from expanding 
a broken Medicaid system under Obamacare.''
    Now, if you think that is how you are going to take people 
out of poverty, you have a really tough sell job. Because I was 
listening to Ms. VanZant and I thought of Lynn Woolsey, who was 
a Member of Congress, who had the same experience, a little bit 
different from yours. She was going along, she lost her 
marriage, she has three kids, she is alone, suddenly she is on 
the welfare system. And she has Medicaid. And she managed to 
get through community college and get elected to Congress.
    There are people for whom those programs work. I mean, we 
are acting like it doesn't work anywhere.
    And when you take health care, okay, so you don't have any, 
you have Medicaid right now. So you get a job. You get a $7.25 
job. That means you are making $19,000. Let's make $13.25, as 
Ms. VanZant said with Josh. He is making $35,000.
    Does he still qualify for Medicaid? If he doesn't, then he 
has to go into Obamacare, where he might need a subsidy at 
$35,000 to buy a policy. But this Committee takes away, wants 
to take away the subsidies. They want to take away the subsidy 
to the employer who subsidizes his employee. Any way you want 
to cut it, you leave them without health care. Now, Ms. 
Johnson, out there somewhere, is 25 years old, she has two 
small kids. What are her problems? Feeding her kids, right? 
Finding decent housing that she can afford.
    The Section 8 list in Seattle, and we're the fastest--we're 
the fourth fastest growing city in the country. We're almost 
bigger than Detroit in population, which tells you the city 
that was once fourth is now way down there with us at 26th or 
something in size in the United States. That's what happens 
when you don't deal with the needs of people. The cities 
disappear, the problems grow and grow and grow, and you have 
this Ms. Johnson, you want her to go to work.
    Ms. Johnson, quit sitting there and worrying about your 
kids.
    Well, I don't have a GED or I don't have the money to go to 
community college. Or I do have some skills, but I need 
childcare.
    One of my colleagues from the last campaign said, ``I spend 
more on childcare than I spent to go to Princeton.'' And that's 
what it costs that woman making $7.25 an hour. And nobody wants 
to talk about raising the wage around here. They won't want to 
go up to $10, $12. They don't want to go anywhere.
    Ms. Golden, you would like to say?
    Ms. GOLDEN. Yeah, I was going to suggest an individual that 
people should have in their minds when they think about poverty 
and then come back to your point about what that person takes. 
The woman who was there for my father-in-law in his last 
illness, the lead homecare worker, was working a lot of hours 
at a very low wage doing extraordinary work, caring for two 
kids with very little ability to count on having those hours, 
right?
    And so I don't know exactly what her income was, but she 
was--she's the person to have in mind as the face of poverty 
today. It's not someone who doesn't want to work. Women with 
young kids are in the labor force at levels of 70 percent of 
all mothers, 60 percent with a child under age three, single 
mothers more than that. And so it's somebody who's working, 
who's not getting enough hours or enough dollars and who needs 
health care to move up, who may need help still feeding her 
kids and who needs childcare.
    And to go to Mr. Rangel's point about the G.I. Bill, what 
she needs--and this I think also goes to Mr. Engler's point--is 
the ability to get some education and additional skills to be 
able to move up, but not at the cost of feeding her kids. So 
she's going to need something that gives her some earnings 
along the way, some Pell grant help, and that's what's going to 
work.
    So I think the picture that has been part of this 
conversation of people who don't want to work is a red herring. 
Almost everybody is working and the issues are about low wages, 
not enough hours and what you need to stabilize your life in 
order to be able to move up.
    Mr. MCDERMOTT. I yield back the balance of my time.
    Chairman BRADY. Thank you.
    Mr. Reichert, you're recognized.
    Mr. REICHERT. Thank you, Mr. Chairman. I want to thank all 
of you for attending today and especially appreciate our 
witnesses who come and share their personal stories and their 
success. I think that's always a moment of inspiration that all 
of us on this panel should share in and recognize as well as 
the people in the audience and those at home listening. So 
thank you for being here.
    We've had a number of witnesses come in and share their 
stories, and I really liked some of the comments that Members 
on both sides are making, that we're here today to--struggling 
with--I'm 65 years old, and I'll bet you that there were people 
sitting on this dais talking about homelessness and poverty and 
education 65 years ago. And here we are, of course, still 
struggling with it trying to find the right answers.
    And that's what today's hearing is about. We're trying to 
work with everyone on the dais here and those of you who are 
here and those in the audience to find the answer to really 
helping people.
    I'm the oldest of seven. I ran away from home when I was 
16. My father, I remember, when we first moved here from 
Minnesota with two babies, looking for work, telling the story 
of him going to a business down in Renton who wasn't hiring, 
but every day he would go to work, sitting on the curb, waiting 
for a job opening. Finally, 2 to 3 weeks into sitting on the 
curb with his lunch bucket, somebody came out and said that 
there was a person who was hurt or quit and there was an 
opening for him so he could put food on the table for his 
family of nine.
    When I was the sheriff in King County, one of the things 
that I did in the morning is that I'd walk through the parks in 
downtown Seattle and one of the parks right next to the county 
courthouse was called Muskatel Meadows, and you can imagine 
what went on there. I sat down on the park bench and talked to 
the homeless people, and some of those people wanted jobs.
    Some of them told me, ``Look, I don't want a job, I like it 
right here where I am because in the morning I can be at this 
place and get breakfast, in the afternoon I can go a few blocks 
down the street and I can get lunch. I can go up here to get 
health care, and I can go down here and get dinner. I don't 
want to work. I like it right where I am. I don't want to do 
anything. I want free health care and I want free food.''
    The other people that I spoke to want jobs, and so I called 
some of our faith-based organizations and the pastors that I 
know and they came down and they held interviews in my office 
and took them, put them in the homes, got them jobs and then I 
did that for about a week and a week later I showed up at my 
office, I had 15 people lined up in the sheriff's office like I 
was an employment agency looking for workers.
    My executive assistant was not happy with me. We were the 
sheriff's office, not an employment agency. But I wanted to 
help people. I've been to the poorest of the poorest homes and 
the most wealthy. People want help. And it's not our job here 
today to argue about this. It's our job here, ladies and 
gentlemen, to find an answer together.
    And I know I'm on my soapbox here for a moment, but I am so 
tired of hearing the rhetoric from both sides really on what 
needs to be here and what needs to be there and that person 
needs this and that person needs--look, I agree with Ms. 
VanZant, and I don't know how anyone can disagree. One size 
does not fit all. It's our job here today to not get political, 
but to find answers to changing the system to help more people.
    Education is absolutely key, training is absolutely key, 
the engagement of the private sector is absolutely essential 
for this to work, OJT, all of that is absolutely necessary. So 
I know I don't usually do this, I usually ask questions, but I 
had--I just had to be passionate about this for a moment and 
make a plea for this panel to come together for the interest of 
those who are homeless, for the interest of those who need our 
help to make a difference.
    Ms. VanZant, how do you think--I know the Governor's been 
asked this question. How do you think the private sector can be 
more engaged? How would you reach out to them?
    Ms. VANZANT. So we've been working a lot with our employer 
partners and I absolutely agree, there has to be economic 
opportunities on the other side of the equation. And a lot of 
times we 
get stuck in this conversation about how we're going to help 
low-income people get prepared for work, but we don't often 
talk about preparing employers to receive those that want to 
work.
    Mr. REICHERT. Yes.
    Ms. VANZANT. And so we've been doing a lot of work with our 
employer partners in southwest Ohio educating them about what 
the transition off of government subsidies looks like, helping 
them to understand how they may actually be their own worst 
enemy when it comes to finding candidates that want to work. 
We've helped some of our employers restructure their hiring 
practices and the types of assessments that they put people 
through in order to find a job. And so I really do believe it 
has to be on both sides of the coin.
    Mr. REICHERT. Thank you, Mr. Chairman.
    Chairman BRADY. Thank you.
    Mr. Lewis, you're recognized.
    Mr. LEWIS. Thank you very much, Mr. Chairman.
    I want to take a moment to thank all of the witnesses for 
being here. Because the gentleman from the State of Washington 
spoke so passionately and eloquently, I feel like testifying at 
maybe the end of my comments. Maybe I will testify just a 
little bit.
    Now in my home State, the State where I've been living 
since I was 23 years old, the State of Georgia, a Republican 
Governor and others before this Governor had used TANF block 
grant dollars to fill holes in other programs. Georgia has 
diverted Federal dollars to subsidize other programs and 
services. They receive awards for cutting programs, reducing 
assistance and making it harder to help the working poor. That 
is not right, that is not fair, that is not just.
    These resources are to help the poor. Now I grew up very, 
very poor in rural Alabama, born in a shotgun house. But in 
1944 when I was 4 years old--and I do remember when I was 4--my 
father had saved $300 and with the $300 a man sold him 110 
acres of land. So I know what it is to work in cotton fields, 
picking cotton, gathering peanuts, pulling corn, raising 
chickens.
    And I've seen poverty all across America. It's not just 
poverty and hunger and people left out and left behind because 
of one race or one color. African American, yes; whites, 
Latinos, Asian American and Native American. We're supposed to 
be about the business of helping people, responding to the 
basic human needs, and we're not doing that. We spend too much 
time talking the talk, but not walking the walk.
    And I think we must act, we must do something. If we fail 
to act, history will not be kind to us as a Nation and as a 
people. I've been here now for almost 30 years. The American 
people are sick and tired and I'm sick and tired of seeing us 
not doing something in a significant way. And I want you to 
tell us what we must do and what we must do now, not tomorrow, 
not after this election, but what can we do now to fill the 
holes, to help people.
    You need health care, basic health care, you need to expand 
Medicaid in order for people to be able to have able bodies to 
work. We can't have sick people trying to work, we cannot have 
people who don't receive enough to eat.
    Ms. Golden, what should we be doing?
    Ms. GOLDEN. That was very powerful, and I know this agenda 
may not quite feel grand enough. But here's what I would say. 
Health care, absolutely. Everybody needs to be healthy in order 
to work. And if you think about the next generation, about that 
child who's 4 years old today the way you were 4 years old, 
that child needs to have a parent who's healthy and can raise 
them and can work.
    I would say investing in children's earliest years, 
childcare programs, early childhood. We're now--we're helping 
the lowest number of people in more than a decade with 
childcare assistance even though it's incredibly expensive, but 
it's incredibly important both for parents and for children.
    I do think that the Congress has done a lot right over the 
50 years since those great society programs. So part of it is 
about not doing anything that would take you backwards, right? 
We have a nutrition program that we know is helping people eat 
where they weren't eating before, and so part of it is holding 
onto that.
    I would also say you have to take on the characteristics of 
work, of low-wage work. I think we do have to take on the 
minimum wage and the hours and the leave. And then I would 
say--and this is a piece where I think I share some elements of 
the agenda with others here--we have to take on the ability to 
get training and get education even if it's 2 years of 
community college. And we have to understand that today's 
students are not getting paid for by their parents. They are 
independent----
    Chairman BRADY. Thank you, Ms. Golden. I'm sorry. Time----
    Ms. GOLDEN. I'm sorry.
    Chairman BRADY [continuing]. Has expired. We're trying to 
be respectful.
    Mr. Roskam, you are recognized.
    Mr. ROSKAM. Thank you, Mr. Chairman, and for hosting this 
today. It's an interesting thing to listen to the nature of the 
debate actually, and there's sort of an ebb and flow to it.
    I want to associate myself with some of the remarks that 
Mr. Rangel made a minute ago in his interaction with Governor 
Engler and sort of speaking to that level of restlessness and 
anxiety that's out there about people that just don't feel like 
they have basically a shot at the title. That's an interesting 
insight, and I think that we can build on that.
    I also just want to bring the Committee's attention to my 
friend and our colleague, John Lewis' Twitter feed. He said 
this: ``Fifty-five years ago today I was arrested in a 
Jacksonville, Mississippi, bus station for using a `whites 
only' restroom.'' And the hashtag is #goodtrouble. And I think 
good trouble is maybe something for all of us to get into today 
and to challenge a little bit of the orthodoxies on both sides.
    So good trouble may involve something where there's an 
acknowledgment on the political left that says the war on 
poverty wasn't really all that successful.
    Now Ms. Golden has taken a different view of that and has 
defended some aspects of the status quo. But I'm not really 
buying it. I am really concerned about the nature of the war on 
poverty. Well-intentioned, God bless them, well-intentioned. 
But trillions of dollars that have basically yielded this isn't 
working. The American public didn't get what they were 
bargaining for, and, in fact, they got situations that are 
worse.
    John Lewis' journey was a journey out of poverty and it's 
his own story, compelling, by the way, to read his book, ``Walk 
with the Wind.'' But he is out of that, and he's testament to 
what can happen when a larger community effort is around it. 
But what are we describing today? We're describing today kids 
who are stuck into four generations of that, that are 
completely beaten down.
    And it's not as if a Federal check is the remedy. Ms. 
VanZant, your testimony, part of it that's most compelling was 
the coaching and the coming alongside and the assistance that 
you're giving. That is really sort of--that's where this can 
become life-giving.
    And I'm not here necessarily thinking everybody who--that 
there's a bunch of people who don't want to work, but there are 
some people who don't want to work. There are some people who 
are abusing the system. So let's separate out those who don't 
want to work and let's empower those who do.
    And I think part of the--if this is a matter of 
recalibrating child credits, if this is a matter of 
recalibrating childcare initiatives and so forth, there's 
something intuitive to that and it makes a perfect amount of 
sense to me. I'm not persuaded that block grants are bad 
things. I'm not persuaded that the Federal Government has the 
ability to come out with a one--a large declaration. If the 
State of Michigan can't figure out a one-size-fits-all, we know 
that the Federal Government cannot figure out a one-size-fits-
all.
    So I just want to encourage the nature of this discussion 
today and I think a number of us would be willing to sort of 
get into some good trouble about this. Because I'll tell you 
what, the status quo isn't working, the status quo has 
underperformed, and the status quo in many cases is leaving 
people trapped from a generational point of view. And some of 
these kids that are being born today, they don't have a chance 
right from the get-go. And I think we can do a lot better than 
that.
    I yield back.
    Chairman BRADY. Thank you.
    Mr. Neal, you are recognized.
    Mr. NEAL. Thank you, Mr. Chairman.
    I think that Sheriff Reichert and Mr. Lewis both offered 
some critical insight. And I've always thought that the safety 
net was supposed to act also as sort of a trampoline, that you 
hit it and you bounce back. And I think that we try 
meticulously to choose our words so as to not offend.
    And in the case of, for example, work requirements, Mike 
Dukakis proposed work requirements in 1974 in his first term as 
Governor of Massachusetts. And I remember that the reaction at 
the time--but much of it really worked, but I think that the 
idea becomes how do you encourage work without being punitive.
    And there were so many good things that we proposed in that 
1996 Act, which, by the way, has been kind of easily cast 
aside, including childcare, transportation, tuition assistance. 
There were a series of things in there that we could use to 
build upon. And I think that--I've noted some of the testimony 
of a former Republican staffer who was much involved in that 
discussion and debate. He has said over the last 3 or 4 years, 
well, there are some other things you can do.
    So he hasn't taken an intransitive position, instead trying 
to be helpful about what we might do. And I will tell you that 
I now see, for example, the trade arguments. Unless there's 
some sort of a supplemental wage, the trade deals are going to, 
I think, be on the side of the road for a considerable period 
of time. And I think that until we begin to address now the 47 
million Americans who receive food stamps, trying to figure out 
how to get many of those people back to work because they 
really do want to work.
    And in an economic--and I'm going to come to you, Ms. 
Golden. In an economic period when the Federal Reserve is now 
saying and projecting growth at 2 percent for the next decade, 
I mean the--just to revisit the Clinton years when there were 
some quarters of growth north of 7 percent, 8 percent and 23 
million jobs, revenue went through the roof. Formulae expending 
on poverty programs went through the floor.
    And not to miss the point coming out of that recession that 
we lost track of almost 8 million people who took social 
security early. Other cases went to social security disability 
and also I think it's fair to say that one of the problems we 
have right now is skill set and also not to miss the following 
point, which I think is critical: Seven to nine million 
Americans are working part-time that want to work full-time. 
The worker participation rate, I mean we need to pay attention 
to those things as opposed to just the talking points that are 
so frequently used in this institution.
    And, Ms. Golden, would you talk about that whole notion of 
the 7 to 9 million people who are working part-time and some of 
the things that we might do?
    Ms. GOLDEN. Sure. I mean, because I think one of the 
headlines that's really important as you deliberate on where 
have we been and where are we going is how many people who are 
poor or near poor and struggling in the United States today are 
working.
    I said before about 70 percent of poor children live with 
an adult who's working, women are working, and we have, as 
you've just said, many people who are working yet who are not 
being able to make ends meet. And that's partly about wages, 
and then as you've highlighted, it's partly about part-time 
work and transient work, work that starts and stops, right?
    So one of the ways to deal with that is to think about what 
people need that will enable them to combine work and training 
and move up. And that's something that's important to spend 
money on. But the other piece is to try to directly address 
those bad jobs. And there are around the country, for example, 
fair scheduling initiatives.
    There's legislation before Congress that would try to 
really focus on what does it take to make sure that somebody 
knows what hours they're working, doesn't have their lives 
messed up by not being able to care for kids, go to school, 
work enough hours. And then of course there's the minimum wage 
agenda.
    So to me part of what you said about the safety net as a 
trampoline, when you look at what the researchers say about the 
safety net itself, what they say is since the beginning of the 
war on poverty, look back on those years. The safety net is 
working enormously better than it was. The problem I think--
cutting poverty in half, instead of by 1 or 2 percent. But the 
problem which you've just highlighted is that there's a big 
headwind from the nature of jobs.
    And so I think we--I think you're right. They're 
concentrating on what's involved in partnership with the 
private sector and through the public sector in enabling people 
to move up on the job and structuring those jobs themselves so 
they have basic standards of quality and of wages. That's 
really I think a powerful direction.
    Chairman BRADY. Thank you.
    Dr. Price, you're recognized.
    Dr. PRICE. Thank you, Mr. Chairman. And I want to thank--
commend the Chairman for calling this hearing. I can't believe 
that it's been over 10 years since we've discussed this in 
Congress here at this--in this Committee. And so I think it's 
incredibly important work.
    Mr. Bragdon, you started your testimony by saying we all 
want the same thing, and I think at one level we do. The 
problem is that what we've been doing clearly hasn't worked. So 
what we're trying to ask is: What should we do? What should we 
do? We are now 50 years into the war on poverty. And as 
somebody once said, poverty won.
    We spend trillions and trillions of dollars--literally 
trillions of dollars as a Nation, and we haven't moved the 
needle on the percent of individuals who live in poverty in 
this country. It was 14.7 percent 2 years after President 
Johnson declared the war on poverty, and today it's 14.8 
percent. Any sane, sober, reflective, sincere society would 
step back and say: What did we do? What happened? Why do we 
still have 14.8 percent of the Nation's population in poverty? 
This is a disgrace.
    So what we need to do is to find what works. What works? 
Sensible, responsible reforms. The Chairman put a chart up 
there that--I mean it's not a piece--it's not an artwork. I 
guess it is an artwork, but it's not meant to be an artwork. 
These are the 80-plus programs, income-based programs that are 
provided by this Nation.
    And you can't--if you're trying to figure your way through 
this as an individual coming into the system, goodness knows 
that you can't figure it out. This is part of the problem. 
There's no doubt about it. If it weren't, we would have 
decreased that number.
    I want to commend the city of Atlanta, metropolitan 
Atlanta. Some folks have disparaged their communities in 
certain areas. The city of Atlanta, the business community in 
the city of Atlanta has done huge work in the area of 
education. The business community has identified community 
colleges and technical schools to say these are the talents 
that we need, let's work together and educate folks and train 
folks so that they can get a job, so they can have a job. There 
have been incredible successes. I would urge us to be thinking 
a little more about some of those successes.
    And to that end, Mr. Bragdon, your testimony highlighted 
some of those successes, and I just can't believe that we've 
kind of washed over the remarkable success. The numbers are 
phenomenal. Would you just take a minute and share with us what 
you believe were the keys that allowed for those successes in 
Kansas and in Maine?
    Mr. BRAGDON. Thank you, Congressman, for that opportunity. 
I think the key really is, as part of the conversation that's 
been had here today is, individuals want to work, but at the 
same time, we have to have the policy and the incentives 
aligned with ensuring that they're taking the steps to get back 
to work. It's not enough to just want to work. You actually 
have to take the steps to get back.
    And that's what these massive tracking studies from Kansas 
and Maine--these aren't samples; these are studies of 50,000 
people, person by person, of what happened after the policy 
change.
    And what's interesting is--and this wasn't in my testimony, 
but if you drill down to the individual county level, those 
counties with the higher rates of unemployment actually had 
higher rates of individuals complying with the work requirement 
or the job training requirement. And the individual stories are 
inspiring. There's one gentleman from Kansas City who was on 
food stamps for 5 years. Within a quarter of that work 
requirement going into effect he was at work and within a year 
he was making $45,000 in the marketing industry.
    Dr. PRICE. I want to commend you and we ought to all be 
looking at this as a highlight and as a model for moving 
forward.
    Governor Engler, you've been involved in this process--this 
political process for a long time and governing, which is 
difficult, which is really hard. But when you look at this 
chart and you see what we have, how would you recommend that 
work to coordinate all of these various boxes and squares, 
circles and triangles to make a system that actually can work 
for the American people?
    Mr. ENGLER. I might just offer any Governor the opportunity 
to take any program 90 percent of the funding free of Federal 
regulation. You'd save money in the Federal budget, and they'd 
get the flexibility to maybe make it work. That might be one 
way out. I can't see Congress ever agreeing on a solution to 
reorganize this many programs, and probably every one of them 
is named after somebody, so you probably can't eliminate it 
either. So there we are.
    So give the flexibility there to see if they can't come up 
with a better system. And I think some performance arrangements 
with the States are what's called for. Let 50 creative 
Governors come in and make some proposals to the Congress or to 
the agency that you delegate and give them the authority to try 
to solve the problem. I do think entering the second half-
century of the war on poverty we ought to be rethinking how 
we're approaching our strategy and it may not be that we've 
been using exactly the right strategy.
    And I do commend the Committee. One thing I haven't heard 
anybody call for today are at least public jobs programs. We've 
kind of gotten that out of our system in the years past. But we 
do have to have a more vibrant private sector that can hire, 
that's where Congressman Neal's point on--you have a 4 percent 
GDP, you have a lot of jobs.
    Dr. PRICE. Thank you, Governor.
    Thank you, Chairman.
    Chairman BRADY. Thank you.
    Mr. Doggett, you're recognized. And I'll make a point after 
you're recognized. To balance off the question and answer 
period, we'll go two-to-one. Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman. And I believe we have 
complete agreement with the first principle that you have 
referred to today, and that is that every able-bodied person 
should be working or preparing to work. Governor Engler has 
referred to pathway programs. We have a number of successful 
ones in Texas: Project QUEST, working to get poor people into 
better jobs with the healthcare industry, and with Capital IDEA 
in Austin working to get some people into the tech industry to 
fulfill some of our workforce demands there.
    Ms. VanZant has outlined a program that appears to be 
working very well. We just need more such programs adapted to 
local conditions to help people get good, long-paying jobs 
where they can climb into the middle class and support their 
families.
    There's only one problem that I have with all of this and 
the announcement of these principles, and that is the failure 
of this Committee to do anything to implement those principles, 
specifically to rig up a way of considering the extension of 
temporary assistance for needy families in a way that denies 
any debate about reforms that could really make a difference to 
poor people.
    And not all the ideas about how to get more able-bodied 
people into the workforce come from Democrats. In fact, one of 
them was included in then-Chairman Ryan's poverty rollout last 
summer. And it was embodied in legislation that was introduced 
by Mr. Tiberi and Mr. Renacci from this Committee. Mr. 
Chairman, I would ask unanimous consent to include Mr. Tiberi's 
press release about that bill in the record.
    Chairman BRADY. Without objection.
    Mr. DOGGETT. And Mr. Tiberi told us that what he had was 
a commonsense reform. Unfortunately, it wasn't common sense 
enough to get considered in this Committee. They have 
structured a process to deny us an opportunity to consider 
whether opportunities for more education or training by those 
who have been receiving temporary assistance for needy families 
should be made available and I think have substituted basically 
a press release suggesting from our last set of bills having 
divided up the question of temporary needy assistance for 
families into about six or seven different bills to avoid 
dealing with Mr. Tiberi's idea or any ideas that the rest of us 
might have about getting more able-bodied people to work, that 
what was substituted was a press release saying that the 
Committee takes action to help families escape poverty.
    I would love a report at the end of the year to show that 
if every one of these bills are adopted, that one person got 
out of poverty this year in America because they were adopted. 
This is about substituting not workfare for welfare, but 
substituting talkfare.
    And then there is the question of the polka dot chart. And 
if you'd put it back up, I would appreciate it. You've referred 
to it in every hearing that we've had about poverty. That chart 
is designed to show how expensive the trillion-dollar welfare 
system is; it's worth looking at the specific provisions on it.
    Veterans Pension and Survivors Pension, Breast and Cervical 
Cancer Provision, the Ryan White HIV/AIDS program, Adoption 
Assistance, Child Support Enforcement, the School Lunch 
program, Federal Pell grants, you know, the people in my 
district can find the program out of that that meets their 
needs, and the person who has a problem with cervical cancer 
may not be someone who needs a Pell grant, or they may need 
both.
    To condemn President Johnson's war on poverty as a failure 
is to ignore the many who never engaged in fighting that war. 
And all of those who cut and run at the first sign of adversity 
on the battlefield, it is to ignore the fact that the States 
today are putting 8 cents of every TANF dollar into the work 
that we say we support.
    We don't lack answers. We don't need intensive 
investigation of which program to support. We know that. 
Republicans have even recognized that. They simply don't have 
the courage to put their dollars where their mouth is. And as a 
result, we talk about what might help people escape poverty and 
move into the middle class, and we do next to nothing about it.
    And that's what's happening this year. It's disappointing 
that our States will not fulfill their commitment--if you want 
to look at a failed Federal program, look at Temporary 
Assistance for Needy Families, because it shows you when you 
have a block grant to the States without adequate standards, it 
is a failure in accomplishing its purpose of moving people from 
welfare to work. I yield back.
    Chairman BRADY. Thank you. Just to clarify, that chart is 
based off of a congressional research summary and a listing of 
means-tested poverty programs.
    Mr. DOGGETT. Mr. Chairman, I failed to include--to ask your 
unanimous consent also. Barbara Lee could not be here today. 
She has the Democratic Task Force. May I ask unanimous consent 
to insert her statement in the record.
    Chairman BRADY. Without objection.
    Mr. DOGGETT. Thank you.
    Chairman BRADY. Mr. Buchanan.
    Mr. BUCHANAN. Thank you, Mr. Chairman.
    And I also want to thank the panel and especially Governor 
Engler. I was from Michigan, and he was a great Governor, so I 
appreciate the opportunity to have you here as a witness today.
    Everybody brings a little different experience, but let me 
just tell you a couple of stories that have--in the last month 
talking to employers, and I'll just--just for a second. One guy 
I met, he dropped out of high school, he has a GED, and he runs 
one of the most successful enterprises in Florida today. He's 
about 38 years old.
    Another young African American 20-year-old is making in 
excess of a hundred thousand dollars, became a manager, he was 
telling me--his employer was telling me last week.
    Another Hispanic young man, maybe 27, 28, making $150,000--
my point being that in the real world--that's the world I've 
been in for 40 years--many people, they just need an 
opportunity. They need a job. And I think the Governor 
mentioned something about growth.
    If you can grow your State and create more opportunities, 
get in the right enterprise, you give me a 20-year-old, and 
I've created thousands of jobs. I don't care if someone's got a 
Ph.D. or a master's in whatever. Maybe technically that makes 
good sense for a lot of that, but many times you can find a 
young person, whether it's in service or in sales, that can be 
one of the top performers in terms of a manager running a 
company someday, running an enterprise. I have seen that for 
the last 40 years.
    And I guess I'd like to ask you, Governor, I know you work 
with large C corporations. But maybe talk about the young 
people you've met along the way in Michigan for 12 years that 
got out of high school, maybe went to college for a year, 
dropped out and are some of the most successful people in the 
State of Florida.
    And I heard a statistic that half of the millionaires, if 
you want to look at it from that standpoint, one way to measure 
it, are high school graduates. So I'd be interested in your 
thoughts on it.
    Mr. ENGLER. A couple of thoughts and maybe just to set it 
up, I'll respond this way. If we think about people who need to 
work, the first person that's going to go back to work is the 
one who just left the workforce last week, that lost their job, 
they're easy to replace. Somebody who's been working can go 
back to work easier than somebody who hasn't worked in 5 years 
or longer.
    And what we're trying to do, I think, is put Americans to 
work. Americans--I do believe Americans want to work. And what 
we're seeing is today an economy underperforming so there 
aren't as many work opportunities out there. And that's a 
function of a 2 percent GDP growth rate versus 4 percent, and 
there are strategies that can raise that 2 to 4. A number of 
those are going to be in the jurisdiction of this Committee.
    At the same time, somebody who's been disconnected from the 
workforce, we're trying to remediate their situation. If 
somebody's been living in poverty much of their lives, it's 
going to be a big challenge. But one thing we ought to pledge 
ourselves is not to make the same mistake with the rising 
generation. Let's not let their children--because we haven't--
the education investments haven't been cut, they've been 
rising.
    In Detroit where 5 percent of the kids can pass the reading 
test for NAEP, the Nation's report, 5 percent are reading, in 
Wayne State, a large urban school there where the graduation 
rate--and this is 6 years of students, all students, is 32 
percent, the underrepresented minorities----
    Mr. BUCHANAN. Governor, let me ask you another question. I 
have 5 minutes. Let me just mention also--because you had 
touched on the idea of incentives. I think Dr. Price had 
mentioned something about in the last 10 years in terms of this 
space, we've done little or nothing. And I think it speaks to 
both parties that we need to do something. But my attitude has 
always been continuous improvement. What incentives, from a 
State's perspective, might we consider or look at to improve 
what we're trying to do here in Washington?
    Mr. ENGLER. You know, let the States try to figure it out. 
I mean, I'm sorry, you just--I wish I could give you an answer 
there's one thing this Committee could do that could fix the 
problem in America. You can't. Let the States try, and let's 
hold States accountable, let's set some metrics out there and 
let's have--to the Members who have spoken on both sides, let's 
bring the top two States back in and what have they done and 
let's bring the bottom two in, what didn't they do.
    And let's evaluate how they spent TANF money. I would 
welcome that one. I was a Governor. I would encourage you to 
hold current Governors accountable. Bring them in and hear from 
them. But you can't fix it from Washington.
    Ms. GOLDEN. Could I add on State examples that are out 
there?
    Mr. BUCHANAN. Yes.
    Ms. GOLDEN. Congress did agree in the Bipartisan Workforce 
Innovation and Opportunity Act on principles for workforce 
training, and I think what Mr. Doggett's highlighting is that 
what that bipartisan agreement said was you need to be--at 
least a community college, at least a post-secondary credential 
is important in today's labor market.
    Pathways of the kind Governor Engler has been talking 
about, where you connect up different work and training 
experiences, unfortunately right now the rules and the sharply 
decreasing dollars in the TANF program make it really hard for 
States to come together even though they want to. And so 
figuring out how to have the resources and the incentives----
    Mr. BUCHANAN. Thank you, and I yield back.
    Chairman BRADY. Thank you.
    Mr. Smith, you're recognized.
    Mr. SMITH OF NEBRASKA. Thank you, Mr. Chairman.
    Thank you to our panel here today as well. I think this 
topic that we are addressing cannot state enough how important 
I think it is, and I am glad that there are folks across 
America who are engaging on the frontlines as you are.
    I know that America is a big country, and during the 
economic downturn, not every State, not every region around the 
country, not even all parts of the same State faced the same 
challenges. And I'm kind of glad that in Nebraska we had 
roughly half the unemployment rate when the national 
unemployment rate was at 10 and we were at 5. I'm not--I won't 
take the time to explain why I think that was the case.
    But I look at a community just outside my district called 
Columbus, Nebraska. Columbus I would describe as very 
industrious, a population less than 25,000. In speaking to some 
of their leaders a couple of days ago, they're talking about 
adding 1,500 manufacturing jobs in a community of less than 
25,000. That's incredible.
    And this actually is not a new situation for this 
community, but we know that there are pockets of unemployment 
around the country, and I know that we can't expect the workers 
to just uproot their lives and their families from one region 
to another, and I especially don't want the Federal Government 
trying to necessarily accomplish that. But how can we kind of 
address these very diverse needs that there are--the huge need 
for workers in one area and a huge need for jobs in another? 
How can we kind of bring this together so that ultimately 
individuals can see more opportunity for themselves and their 
families for the future?
    Governor Engler, could you explain perhaps, given your 
national perspective and your experience?
    Mr. ENGLER. Sure. The example you've just given is a 
perfect one to start with. The community college in the area no 
doubt has been working with the local leadership, and they're 
going to set up training programs to specifically train people 
for the jobs that are going to be in that manufacturing plant. 
They're going to address that need, and they're going to take 
some people maybe working in lower wage jobs and retrain them 
for a new job.
    And today when companies are making location decisions, 
despite all the talk about tax incentives and this and that, 
the number one barrier to location today is workforce. And the 
number one deal that most Governors are offering is if you put 
your plant, if you put your facility here, we'll train your 
workforce. You tell us what you need in the way of training, 
we'll deliver that. We'll customize that for you.
    The disconnect in the poverty debate is that we're taking 
people who can't even read and suggesting that they're going to 
learn to handle computers or technology or statistically 
produce a part where there's no errors and a million parts. 
That is not going to happen. That is a fantasy. And so the idea 
that we're going to suddenly upgrade someone with no skills--we 
can do that with some over time, but whole-scale, that's not 
going to happen.
    But the children who are in school, we're paying $15,000 a 
year to the school to teach, perhaps for $150,000 we can get 10 
kids to read. And then if they can read they can learn some 
science and they can be prepared. We have to break the cycle. I 
mean, this is what--I mean, stop treating the failure and deal 
with the root cause.
    And your community college will not be able to train the 
person who's illiterate, at least very easily and very quickly 
and probably maybe not in time for that first couple of years' 
employment at that plant. They can do it over time.
    Ms. GOLDEN. And one--I think one strategy it builds on is 
that you need some parts of your strategy that are national. So 
I completely agree that with the Workforce Investment Act and 
other strategies that need to be funded--it's not funded enough 
yet--they get resources to the community college locally, that 
gives you part of your answer. But you also need for every 
child to have access to health insurance and to food.
    Because what we know from the national research is that 
that booming economic area, the kids that are its future are 
not just growing up in that State; they're growing up all over 
the country. So we need to be able to have a national floor 
that makes sure that all those kids are getting the basics, the 
nutrition, the health care, the early experiences and then you 
can build on top of that with local.
    Mr. ENGLER. Which years ago before Obamacare Congress 
addressed through SCHIP. Every child in America was given 
health insurance through the SCHIP program. You were all part 
of that.
    Mr. SMITH OF NEBRASKA. Well, I appreciate the responses. I 
think mentioning education and the impact of costs of education 
and so forth, it would be interesting to study the impacts of 
student debt and poverty. Thank you very much.
    Chairman BRADY. Thank you.
    Mr. Larson, you're recognized.
    Mr. LARSON. Thank you, Mr. Chairman, and thank you for this 
hearing. I never cease to be amazed, sitting through one of 
these, how you come up with constructive ideas.
    I especially want to commend Mr. Reichert and Mr. Lewis. 
It's all so rare that passion takes over for what our usual 
message is that we're going to ask our witnesses, and I think 
within that passion, a couple of things that are tied to the 
testimony that we've heard today.
    Number one, I think Mr. Engler's suggestion about looking 
at States and the laboratories of democracy that we all know 
that they are and bringing in those that have been successful 
and those that have not. I would also say the private sector. I 
say that for two reasons, Mr. Chairman. One, I had a little 
epiphany while sitting here and listening. I think this 
Committee--the operative word in politics and the economy today 
is disruption, changing or breaking the cycle as a number of 
people here have said.
    One of the cycles we need to break, quite frankly, is the 
way we get information and the way we do public hearings. We 
should be going out to the States. I would love to go to 
Detroit and the Upper Peninsula and see the differences there 
between what happens in an urban area and what happens in a 
rural area and how the solutions could differ. Because all the 
panelists have indicated not one size can fit all in all these 
cases, and we have so many opportunities.
    I would also ask that we bring in people from the private 
sector. In my home State of Connecticut, the AETNA leads the 
way in terms of coming out and recognizing what we have to do 
with wages, saying minimally they have to have $16 in order for 
people to make it in today's society. And they went on and 
examined their own programs over the years and said, you know 
what, if we don't boost their healthcare benefits, number one, 
they can't afford to live where they go to work if we don't 
give them the right minimum wage.
    And, number two, they can't afford to buy what we're 
making, an idea that Henry Ford first came up with and said if 
we're going to produce Model A's and we're going to have them 
come off the assembly line and people are going to be able to 
buy them, they have to have the money.
    These are practical things that sometimes elude us here in 
Washington, and it is what the people despise about us because 
they say we're about messaging and not about solutions. And 
they're right. We're about messaging. We don't come up with 
solutions. We have taste-great-less-filling arguments all the 
time and then people say, my God, nothing gets done there. And 
everyone dramatically goes home and restates their messaging 
points, and we don't move the ball any further forward.
    We have to disrupt that and change it. Hal Rogers is 
leading the way. He's got a great idea with respect to how we 
address poverty, how we address it in promise zones 
specifically on a very narrow basis, but incentivizing 
businesses who will actually locate and hire people in poverty 
zones that have been designated across this country. What a 
change if we were to go out there and view those firsthand.
    Whether it's Washington State or Georgia, if this Committee 
were proactively going out instead of sitting here in a 
messaging quandary over these issues and debating the ideology 
on the left and the right, do what the American people expect 
of us, solve a problem for them.
    The bottom line is this: Do safety supports work? And if 
they do work, what do we need to enhance and change them? And 
if the system after 50 years isn't working the way that it has 
to, do we throw the baby out with the bathwater or what kind of 
changes do we need?
    Ms. Golden, I'll give you the 1 minute I have left to 
answer what is a comprehensive question, but----
    Ms. GOLDEN. Okay. So I think there's a mix of new ideas and 
successes we've already had, and I think it's very important to 
recognize the successes, that it really does matter that we 
have a consistent ability for people not to be hungry and are 
growing toward an ability for people to be healthy, and we're 
addressing poverty. But it's also important to recognize the 
big gaps, which you've highlighted, wages, hours and the 
persistence of people's inability to do better.
    New and emerging ideas I would actually highlight are a 
couple that I think have sort of come out, but just to pull 
them together. I--one is the idea that one of the ways you make 
a difference is by influencing two generations at once, parent 
and child. And that's--there's powerful new research that says 
the core safety 
net programs do that, SNAP and Medicaid, the earned income tax 
credit.
    But there's also, I think, a lot to be thought about and 
worked on about how to really focus on what we now know about 
those early years of life. Do childcare right, do early 
childhood programs right. And then I'll just toss out one 
other, which is that I do 
think that Congress in their bipartisan work on the Workforce 
Investment and Opportunity Act really took seriously how 
college--community college credentials and workforce 
development can fit together and there's lots to say there.
    Chairman BRADY. Thank you, Ms. Golden.
    Mr. Paulsen----
    Mr. LARSON. Mr. Chairman, would you entertain my--me 
submitting to you a proposal that we have the Committee--I know 
it's not going to happen tomorrow. But I do think taking this 
Committee on the road and going to people's districts where 
we--that actually depict the problems that are going on would 
put Congress in a better light as an institution of working 
toward the solution, and I think you could have the same kind 
of witnesses, but we'd be doing it, we'd be reaching out to 
America, we'd be getting out beyond the Beltway.
    Chairman BRADY. I'd be interested in anything that would 
put Congress in a better light, anybody, anywhere.
    Mr. LARSON. Thank you.
    Chairman BRADY. Mr. Paulsen, you're recognized.
    Mr. PAULSEN. Thank you, Mr. Chairman, also for holding this 
hearing. And this is actually the first Committee hearing on 
poverty or welfare reform that's happened in a long time, and I 
can only imagine--I was not here in the 1990s when this debate 
was happening, but I was in the State level, and these debates 
can be very passionate and engage a lot of different 
challenges.
    The sad reality is today that there are too many Americans 
that are still living in poverty and lack the right job 
opportunities and tools just to keep moving up the economic 
ladder, and the status quo should absolutely be looked at being 
revised, and that's because we owe it. We owe it to those folks 
that are most in need that get help from these programs to make 
sure that we're actually seeing results.
    And I just really appreciate the testimony we've had here 
this morning. I'm not going to make a long statement, because I 
do want to have a chance to ask a few questions. And maybe I'll 
just start with Mr. Bragdon real quick.
    From results we've seen around the country, what do we know 
about how individuals respond to financial incentives when 
they're put out there--do individuals respond to those 
incentives? How specifically do welfare benefits potentially 
discourage work on--when you look at that?
    Mr. BRAGDON. Thank you for the question. I think that's 
what's so instructive about these largest-ever tracking studies 
in Maine and Kansas is that we have the answer to that by 
looking at what happened to individual behavior before the work 
requirement and then what happened after. And I think the 
spirit of your question is spot on that people respond to 
incentives.
    It's not just enough to want to work; you also need to be 
nudged. And what the lesson from the work requirements and 
looking at individuals is, that nudge in getting people either 
back to work or in training--it's not just about work; it's 
about training or even volunteering--was transformative. For 
those individuals who weren't willing to meet that standard and 
cycle off welfare, they went back to work in record numbers.
    They went into 650 different industries. Only 20 percent of 
them went into food service. Many started out in temp agencies 
and then moved into full-time employment. So the response was 
very dynamic to one policy change. You had this really 
significant response where people took what they desired, but 
then the incentives were in line for them to actually go back 
to work and increase their earnings over time.
    Ms. GOLDEN. May I correct--oh, I'm sorry.
    Mr. PAULSEN. In just a second. Maybe Ms. VanZant, because I 
appreciated your testimony earlier, too. Following up a little 
bit on that, given your experience with work and your personal 
past experience, is the problem that recipients don't get to 
keep all of the money they earn from work because their 
benefits get reduced?
    Or is it also the component that some people are actually 
made financially worse in many respects by working because they 
lose some of the benefits that they have as a part of those 
earnings. And that's a challenge that they have to face, right? 
They make sort of a decision.
    Ms. VANZANT. Absolutely. Absolutely. Thank you for the 
question. Yes, as a person goes to work, especially in the 
lower-wage jobs, what they'll experience is that many times 
their subsidies are decreasing at a much faster rate than the 
income that they're bringing in. And so what we typically see 
in our members is that same kind of knee-jerk reaction we might 
all have of this is just not working out for me. The math is 
not working out for me.
    If I'm making $8.10 an hour, which is minimum wage in Ohio, 
and I'm working 32 hours a week and I'm losing 50 or 60 percent 
of my food stamps or all of them before I even receive my first 
paycheck, how in the world am I supposed to piece that 
together? And so one of the things that we're suggesting is 
that we take a look at the spectrum of the safety net programs 
and look at how we can put some of them in place after work 
starts to really allow the slope of--instead of the cliff and 
allow it to be a much slighter slope and that the incentives 
are directly aligned with the types of supports that Americans 
need when they go back to work.
    If we pull mom and dad out of the house 40, 50 hours a week 
because they want to work and they're in an opportunity to have 
a full-time job and we don't give them any supports for the two 
and a half children they have back at home, that's not going to 
bode well long-term for the family relationships that are 
happening.
    But if we can give mom and dad the types of supports they 
need when they are pulled out of the house 40 to 50 hours a 
week in jobs that allow them to know that their kids are in a 
safe place, that they have after-school activities, that some 
of the large dollar items in their budget such as housing and 
childcare and utility assistance are in place that allow that 
slope to be much more gradual, what I think is we're going to 
find troves of people going back to work, because I really do 
believe that they want to.
    And one point about the work requirements, from my own 
personal experience and from the thousands of members that I've 
worked with across the country that are low income, I don't 
necessarily think that mandating anything to anyone is the way 
to go. I believe any time that we're told that we have to do 
something we have an automatic human resistance to doing that 
even if we know it's the absolute best thing that we can do. 
But giving people options of things that they can do I think is 
very important.
    Mr. PAULSEN. Thank you.
    Chairman BRADY. Mr. Marchant, you're--Mrs. Black, you're 
recognized.
    Mrs. BLACK. Thank you, Mr. Chairman. And I so appreciate 
the conversation that we're having in here because 47 million 
Americans being in poverty is unconscionable. In a country 
where we have the kinds of resources that we do, there is no 
reason to have 47 million people in poverty.
    I'm going to associate myself with my colleague from 
Connecticut that talked about us messaging and not having 
solutions. We must take a look at what the solutions are, and 
we must put them in place and stop just talking about them.
    I will also associate with what was said about one size not 
fitting all, because as we look at programs around this country 
and different programs that are working, we're ignoring really 
talking about those in a way that will help us to solve this 
problem, and we keep turning back to the same old stuff over 
and over again thinking that it's going to work when it hasn't 
worked for all of these years.
    I will tell you that I have a personal relationship with 
the situation where I started out and my family started out in 
public housing. And I know what hard work can do to put me 
where I am today from living in the halls of public housing to 
serving in the halls of Congress.
    So I've given back and not in as great a way as I'd like to 
since I've been here in Congress, but I can tell you that I 
worked with a young lady getting her the opportunity to get an 
education, being able to get a job with that education as an 
LPN.
    And you know what she told me after 3 months of working and 
she was no longer getting her check in the mail? She was frozen 
and couldn't go back to work because she was scared to death of 
not getting a paycheck, that she might lose her job and not 
have a paycheck to feed her four children because she was 
trapped in poverty. She told me her mom was on welfare, her 
grandmother was on welfare, it was the only thing she ever 
knew.
    People do get trapped. And we, government, are trapping 
them. And so I want to thank each one of the members today, 
Governor Engler for talking about the necessity to have 
education, not just post-secondary education, but to make sure 
kids are getting good education in high school and to even give 
them an opportunity when they leave high school maybe not to go 
to college but to get a skill.
    Look, I pay the guy that comes in to fix my refrigerator a 
lot of money. And those are good jobs, and we haven't done a 
good job in saying these are good jobs.
    I want to thank you also, Ms. VanZant, for what you're 
doing to help with this drop-off that we know happens, this 
cliff and what kind of paralyzation takes place when someone 
knows that they're going to hit that cliff.
    And then also, Mr. Bragdon, I have this article from Forbes 
that talks about--and I read this before you actually came here 
today--the successes in both Maine and also in Kansas of the 
programs.
    I want to go back to you, Ms. VanZant. How is your program 
funded? Because you're having tremendous success. So what is 
the funding mechanism?
    Ms. VANZANT. Actually, thank you for the question. We are 
self-funding. So the CareSource Foundation is actually funding 
the program. Because many of the things that we are doing under 
the umbrella of a managed--a Medicaid managed care plan are 
things that cannot be funded out of Medicaid. There are really 
strict rules around where those dollars go.
    And so through the research that we have done and really 
looking at how overall health and wellness was not happening 
for the 1.5 million Americans that we have on our plan, we 
decided to take our own dollars and start to test this concept, 
that if we actually coupled looking at economic stability with 
the types of supports that we have been offering through 
Medicaid and the Medicaid exchange, that we could actually be 
able to move people forward at a faster pace, but in a 
supported faster pace. So right now we are using private 
dollars.
    Mrs. BLACK. These are private sector dollars.
    Mr. Bragdon, would you talk a little bit about how Maine's 
Governor came to this thought and conclusion that he needed to 
do something a little different to get people back to work in 
this particular category?
    Mr. BRAGDON. Sure. Thank you for the question.
    The Governor of Maine, much like yourself, grew up in very 
tough circumstances. He is one of 18 children and his family 
was homeless at age 11, and he saw firsthand what poverty and 
what welfare did to his siblings and to his family. He grew up 
in a very, very tough family environment.
    And so I think, while there is a lot of rhetoric around 
this for a lot of individuals, it really is about their own 
personal life story and then how can we align policy incentives 
to ensure that as few people as possible have that same life 
story going forward.
    And, as I said in my testimony, that is where I feel like 
the real tragedy of the failed welfare state is, that so many 
families are trapped in poverty for far too long.
    Mrs. BLACK. And so what we see here is a private sector and 
a public sector solution, both of them coming together from 
different States and different mechanisms. But being able to 
find a solution.
    Thank you. I yield back the balance of my time.
    Chairman BRADY. Thank you.
    Mr. Pascrell, you are recognized.
    Mr. PASCRELL. Mr. Chairman, this is a very sad day. A good 
friend of ours died yesterday, he played for the Baltimore 
Colts, Bubba Smith. Now, how did Bubba Smith die? Bubba Smith 
died by getting hundreds of whacks to his head. He was a 
lineman, and had CTE. He has become the ninetieth NFL football 
player to die from CTE.
    How many times does a child in poverty, who doesn't get 
enough to eat, doesn't get the proper health care when he 
doesn't get enough to eat, how is that child damaged 
physically, psychologically and spiritually through the years?
    Our problem is, and I agree with the young lady who just 
spoke and the gentleman from Connecticut, that we deal in 
absolutes. And the world does not work that way. I believe if 
the Chairman could use his own talents and the talents of each 
person, every person on this Committee--I have a lot of faith 
in this Committee--and forget about where leadership is going 
in either party, that we could make some resolution here, if we 
really, really wanted to.
    I have been working since I was 10 years old. So I have 
been working for 69 years. I love work. And the older I get, 
the more I love work.
    Most of the people--I have lived in a city all of my life. 
You see, we know history, Mr. Chairman, we don't know culture. 
We have no idea of the person living in rural Mississippi 
compared to the person who lives in, as someone said, 
Cambridge, Massachusetts. And that is why we have to have some 
changes in what a minimum wage would be. The cost of living is 
very different in that rural area. So you can't just impose it. 
I understand that.
    We could come to some resolution if we are at the right 
place, if we are at the right place.
    Governor, you were a great Governor. I find it difficult to 
say, because you are of the other party. But you were a great 
Governor. You had a lot of practical solutions and you did 
listen to people. That is unusual around here, as you know.
    The States with the worst child hunger, Mississippi, 
Arkansas, New Mexico and Georgia, John, these Members 
representing their constituent voices when they vote for SNAP 
cuts, so if you are a representative from those States and you 
see our program SNAP being cut and cut, you better pay 
attention because you are one of the worst child hungers in the 
whole country. If not the world.
    Because paid family leave--child poverty in the United 
States is the worst among many developed countries. That is 
serious. How many whacks does the kid need?
    And we can do all the political pontificating we want. If 
we are not going to try to help, nothing will get done. In 
fact, many people came to this Congress in 2010 not wanting to 
even deal with what the responsibility of the Federal 
Government is, and you see where that has brought us. To no 
resolution of anything. None.
    Even in New Jersey, my State, we have a State paid leave 
program. So the women who used paid leave were more likely to 
be working a year after having a baby, and 39 percent less 
likely to receive public assistance. I am not making this up. 
That sounds in line with your principles. So why don't you 
support a paid leave policy, Mr. Chairman?
    The Family and Medical Insurance Leave Act, H.R. 1439, 
sponsored by Rosa DeLauro from Connecticut, which would ensure 
paid family leave for all qualified workers, had 124 sponsors, 
not a single Member from the other party. Not that they 
wouldn't get on, but their leadership told them not to get on. 
You better not get on that bill. Just like Mr. Renacci and I, 
when we tried to get a transportation solution, and the 
leadership said, don't get on.
    So while I appreciate the Speaker's desire to enact this 
rosy P.R. campaign to make Republicans appear more 
compassionate toward the poor, the record speaks for itself. I 
don't believe that there is one person on this panel that has 
less compassion than I do. Listen to what I am saying.
    Chairman BRADY. Thank you, Mr. Pascrell.
    I know. I apologize. Your time has expired.
    Mr. PASCRELL. Thank you, Mr. Chairman.
    Chairman BRADY. While we may disagree on many issues, I do 
agree with you about the goodness and the greatness of Bubba 
Smith, who grew up in Beaumont, Texas. I had the honor of 
running the Chamber of Commerce there for a number of years, 
and had an opportunity to work with him on tourism industries.
    I am not sure I did bring that subject up, but----
    Mr. PASCRELL. Just as the NFL deep sixed--wanted to deep 
six the report on concussions--CTI--we sugar coat----
    Chairman BRADY. Mr. Pascrell, I understand our differences. 
So thank you. And I appreciate your passion.
    Mr. Kelly, you are recognized.
    Mr. KELLY. I thank the Chairman.
    And I want to thank the panel for being here, because you 
were asked to come here, not just to testify but to give us 
solutions of what we can do.
    I just think it is hard for somebody like myself, from the 
private sector, to look at half a century of spending, $22 
trillion. It is not that we haven't spent the money. And the 
money we spent, by the way, does not belong to Congress, it 
belongs to hard-working American taxpayers. I think they more 
than deserve a little bit better return on that.
    Ms. VanZant, because I think your story is so relevant, for 
moms, for moms to get back to work, childcare is a huge issue, 
is it not?
    Ms. VANZANT. It is.
    Mr. KELLY. Okay. So in your case, what motivated you to do 
what you did? Because you got up and got moving. You didn't 
lament where you were, you just decided to turn your sights to 
where you wanted to be.
    Ms. VANZANT. Absolutely. And so, in my situation, I had a 
lot of family support. We called it the baby shuffle that we 
did for the 4 years that it took me after I had my son to 
graduate from college. My parents, my in-laws, my husband and I 
all had car seats in our cars. And this was before the days of 
cell phones, and so literally there were times where we weren't 
exactly sure who was picking him up from where. But we were 
pretty sure that a family member had him.
    And so we weren't able to use a day care. We couldn't 
afford it. And at that time, back in the mid-'90s, there 
weren't the types of childcare supports that there are now. 
Although for the families that are going back now, the cost of 
childcare is significantly higher than it was when I couldn't 
afford childcare back in the 1990s.
    Mr. KELLY. Do you know what the average is now?
    Ms. GOLDEN. I have it in my testimony.
    Mr. KELLY. Excuse me, Ms. Golden. I appreciate you jumping 
in. But it is $10,500.
    We have introduced some legislation that would actually 
increase the pretax dollars that working families are looking 
at right now. That is a piece of legislation that Ms. Sanchez, 
myself, Senators Ayotte and Capito are working on.
    And so I think that--what you said earlier, you talked 
about families. I would just submit that the programs that we 
have initiated don't keep families together. And if you look at 
the statistics, where we have come as a Nation in 50 years, as 
opposed to families working together to raise children, we have 
put government programs into place that actually incentivize 
breaking families down, not keeping them together. That, to me, 
is a very failed policy.
    When I look at everything you were all talking about today, 
all of us are the sum product of families who raised us for one 
reason and one reason only, and for many reasons, but to be 
self-sustaining and be able to rely just on yourself. That's 
what I heard, Governor, Governor Engler, I really like the idea 
that you go to the States, 50 States, let them try out things 
and make sure what worked and what didn't work. If it works for 
you in Michigan, maybe it would work for somebody in 
Pennsylvania, maybe it would work for somebody in Idaho or 
Texas.
    So I really do think the best laboratory is actually in the 
States. The only problem we have, if I am not mistaken, is that 
when you take a government handout, there are so many strings 
attached to it, you really can't do what you want to do. You 
are kind of handcuffed to only working within the parameters of 
what was discussed.
    So tell me in your experience, and what you are doing right 
now, you are talking about best practices that give American 
taxpayers a better return on their investment. That is all we 
are looking for. It is not that I want to spend any less money, 
I just want to see a better result for all those folks who get 
up every day and go out to work, sometimes mom and dad 
together, and sometimes they are both working two jobs.
    So tell me, in the States, is that not the best way to do 
it? You don't need a Federal Government dictating from 
Washington what you need to do in Michigan or Washington or 
Oregon or anyplace else?
    Mr. ENGLER. I totally agree. And if we couldn't give it to 
the Governors, I would divide it by 535 and let every Member of 
Congress be in charge of something, because you would all--
somebody here would figure it out and the others would then 
follow.
    But what we are trying to do with the bureaucratic, top-
down approach, it is too constraining. And you just heard 
earlier the description in health care, they are trying to do 
things on wellness. Wellness is a really important prevention 
investment. It pays off. We think it's a big deal. That ought 
to be covered. We spend $3 trillion in health care. They say $1 
trillion of that is wasted, we just don't know which trillion 
it is. But if you could free that up, look what we could do in 
terms of health care and addressing some of the issues that 
Congressman Pascrell raised just a moment ago.
    Mr. KELLY. Ms. VanZant.
    Ms. VANZANT. And I would also like to weigh in. When you 
look at the 80 programs on the chart that you have been 
referring to today, it is my experience, and I think it is the 
experience of a lot of low-income Americans, that they end up 
with a lot of people that are paid to be in their lives, to 
administer just one piece of the poverty puzzle. And those 
programs are not necessarily allowed to cooperate with other 
programs. There is no consistency. We have lots of rules around 
information sharing and lots of things that keep well-
intentioned case managers, well-intentioned programs and low-
income people who want to work from actually being able to make 
those steps moving forward, because of a lot of the rules and 
regulations that we have surrounding those 80 programs.
    Mr. KELLY. One final point I want to go back to. A half a 
century and $22 trillion later, we don't have enough good to 
show for what we are doing. And I think we sometimes get 
confused about throwing money at a problem, and that is easy, 
as long as it is not your money. When it is other people's 
money, it is easy to throw. Coming from the private sector, 
every penny counts. And every penny of what we put out there 
comes from hard-working American taxpayers.
    Chairman BRADY. The gentleman's time has expired.
    Mr. Renacci, you are recognized.
    Mr. RENACCI. First off, I want to thank the witnesses for 
their testimony, and I want to thank Chairman Brady for calling 
this important hearing.
    Like all of my colleagues who serve on this Committee, I 
believe that one of the keys to ending the cycle of poverty is 
ensuring that individuals have access to the education and 
skilled training required to be on a path toward a good paying 
career. In some cases, that does not mean a college education. 
So, as my colleague, Mr. Larson, mentioned about getting out 
into the real world, I have actually taken, over the past 2 
years, taken the time to meet with local leaders in Cleveland 
and Akron, Ohio, to discuss barriers which prevent northeast 
Ohioans who are in poverty from finding permanent employment 
and being self-sustainable.
    I have met with the county Jobs and Family Services staff 
to understand how the Federal programs are working and not 
working. I have also met with individuals in the programs, many 
of which did not have their GED, let alone basic skills. I ask 
to submit a letter into the record, Mr. Chairman, from Summit 
County Executive Russ Pry.
    Chairman BRADY. Without objection.
    [The submission of The Honorable Jim Renacci follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
   

                                 <F-dash>
    Mr. RENACCI. These individuals are all working within the 
current system. What they told me is the State simply does not 
have enough flexibility in administering TANF and that outdated 
workforce participation rules act as a barrier for agencies to 
work with TANF clients and engage in activities that would 
actually provide the training and education they would need to 
get back to work. They all emphasized we need to assure a basic 
education, including a basic GED.
    If we want to get people out of poverty, it is the one 
thing I have learned from all these meetings, and into the 
workforce, we need to help them get their GED. You can't even 
join the Army without a GED or high school diploma.
    In fact, according to the State of Ohio's 2016 Poverty 
Report, Ohioans above the age of 25 who do not have a high 
school diploma are twice as likely to be in poverty compared to 
individuals who have obtained at least a high school diploma or 
GED. It is clear that paving the way to at least obtain a high 
school diploma is an easy step. We talk about steps, we talk 
about things we can do. That is an easy step that Congress can 
take to alleviate poverty.
    So I want to go back to the one thing that was said to me 
time and time again. If we want to get people out of poverty 
and back to work, we need to at a minimum get them their GED. 
That is not me saying that, that is all these people that I 
have talked with.
    Does the panel agree, yes or no, a basic starting point 
would be to make sure TANF dollars used for work credit hours 
should include hours credited toward getting the individual, 
those individuals, their GED or high school equivalency? I will 
have a yes or a no.
    Ms. GOLDEN. Yes, and, I mean, it is Mr. Doggett's point 
that, yes, TANF needs to be able to provide more education. And 
States need the resources, because they are squeezing down the 
dollars in total.
    Mr. RENACCI. Does everybody----
    Mr. ENGLER. Yes. The GED requirements have been upped a 
little bit. They are more rigorous, and I think that is a 
really good thing that has been accomplished. So I think the 
old GED was a little more dubious. But, sure.
    Mr. RENACCI. But you have to admit, you can't even get a 
college education without your GED. You have to start there.
    Ms. GOLDEN. There are pathways that will take you directly 
to the higher education, but TANF isn't well structured to do 
that either, right now.
    Mr. RENACCI. Ms. VanZant.
    Ms. VANZANT. I absolutely agree. For any job that is going 
to pay anything above minimum wage, you really do have to have 
that basic education. And then there needs to be additional 
support in the career technical ability to use TANF work 
requirement times to be able to do those. And a lot of those 
technical career options that are just above a GED or high 
school diploma are short-term training that can actually move a 
person from the minimum wage into a $10 to $12 an hour job with 
less than 6 months of education under their belt.
    Mr. ENGLER. You could actually fund this using Federal 
dollars that are paying for remedial education in college today 
by stopping that and saying to the schools, get it right before 
you send the kids, ill prepared, to college.
    Mr. RENACCI. Well, in my district, if you just get your GED 
and a welding certificate, you can make up to $60,000 to start. 
So I think that is----
    Mr. ENGLER. Yeah, I don't disagree.
    Mr. RENACCI. That is why I keep trying to get away from 
college education always being the answer.
    Mr. ENGLER. It is not, you're right.
    Mr. RENACCI. Mr. Bragdon.
    Mr. BRAGDON. Yes, I would say I agree. I think it should go 
beyond just parents on TANF, though, to look at the kind of 
jobless, nondisabled adults that we were talking about 
receiving food stamps. As part of that work requirement, 
training is a piece. And I think you are spot on with the GED 
as the first critical step for that population as well.
    Ms. GOLDEN. And States get resources that they could use, 
if they were choosing, in fact, to offer those opportunities 
for the adults that Mr. Bragdon is talking about. 
Unfortunately, because they haven't chosen to use it, they are 
not pushing as hard as they could, and so people are without 
those opportunities.
    Mr. RENACCI. Thank you.
    Dr. Davis, you are recognized.
    Mr. DAVIS. Thank you very much, Mr. Chairman.
    I want to thank all of the witnesses for their testimony. 
And I also want to thank my colleagues because I have heard 
many passionate, real expressions of concern, directions that 
will aid us to get where we need to go, as well as experiences 
with things that have actually worked.
    Let me just mention two things that we know. One, we know 
that one in five children in the United States are living in 
poverty. We also know that the United Kingdom reduced their 
child poverty rate by 50 percent in a 10-year period by 
targeting poverty direction and by implementing specific 
policies to help low-income families.
    I agree with all of my colleagues who have expressed a 
great desire that people work. I remember the Prophet; Gibran 
says that work is love made visible. And to me, when you work, 
it enhances your sense of self, your self-being. So I don't 
think there is anything more important. But I also remember 
that every slave had a job. And I believe that every person on 
Mr. Lewis' father's plantation worked.
    Friday of last week, I flipped hamburgers at a White 
Castle. And I must confess that it took me a while to learn how 
to do the flip, that I couldn't just go in. And I waited on 
customers. All of this had to do with National Hamburger Week, 
and learning and knowing what others do.
    And so work is a virtue. But I don't believe, just as Great 
Britain didn't believe, that work alone was enough to seriously 
reduce poverty, that it took some other things, such as a 
livable wage.
    I believe every person that is able-bodied, unless they 
have some impairment other than adequate childcare, or 
something else that prevents them from being able to get to and 
from a job, should work. But that alone is not going to do the 
job.
    Ms. Golden, from a more math comprehensive vantage point, 
based upon evidence-based research, what we have seen work, 
what does it really take in your estimate?
    Ms. GOLDEN. I think it takes several things and you have 
hit on some of them. It takes, as you say, it takes more than 
work. One of the important ways we know that is that almost 
everybody on SNAP now is either working, worked last year or 
works next year. And most poor children are with someone 
working. So lots of people who are working are not able to keep 
their families out of poverty. So you highlighted the living 
wage and the regular hours.
    It also requires, as you just said, addressing the 
barriers. It requires really paying attention to children's 
early years. Because those children's experience, their 
nutrition, their health, their parents' stress, the settings 
they are in are going to affect them later in life.
    It requires help during those periods when people aren't 
doing well. Great Britain does that, did that way better than 
we do. And that can be through a child tax credit, it can be 
through TANF, it can be through nutrition. But you have to have 
food on the table and a stable place to live. And then the 
ability to move up afterward. So I think it has those pieces. 
It is about the jobs and it is about what the family gets.
    And I just wanted to correct one fact about Mr. Bragdon's 
studies. He has presented the 60 percent working rate in the 
year after as though it were better than what you would have 
gotten without imposing the time limit. In fact, if you look at 
the SNAP program nationally, about 80 percent of adults on SNAP 
work in the year before or the year after. So the study doesn't 
prove that it got worse because people were hungry and couldn't 
find a job, but it doesn't prove that it got better.
    So to circle back to your point, work alone at low wages 
isn't enough.
    Mr. DAVIS. Thank you very much.
    Mr. REICHERT [presiding]. Thank you, Mr. Davis.
    Mrs. Noem, you are recognized.
    Mrs. NOEM. Mr. Bragdon, did you want to respond to that?
    Mr. BRAGDON. Yes, thank you. I want to be clear, this 
wasn't some made up information. This was looking at the actual 
Kansas Department of Labor Earnings and Hire Database for the 
several quarters before the work requirement went into effect 
and then for a full year after. And this was for 41,000 people. 
In Maine, it was replicated for 10,000 people.
    And the facts are clear. Only one in five individuals were 
working before. After the work requirement, those moved off 
welfare, 60 percent went to work within the first year, 50 
percent----
    Mrs. NOEM. Did they track if they were working full time or 
part time?
    Mr. BRAGDON. They weren't able to track the number of 
hours, but they were able to track wages. And those wages 
increased every quarter.
    Ms. GOLDEN. And there wasn't a comparison group, so that 
makes it hard to know otherwise.
    Mrs. NOEM. I will reclaim my time.
    Because many of you referenced today the need for more 
resources, I have $137 billion for you. I am sure that you 
would like to have that added into the programs to help more 
people. And it is through improper payments that currently 
happen through a lot of our programs that we arrive at that 
total. In fact, almost 27 percent of earned income tax credit 
payments are made improperly. We have, gosh, that is almost $40 
billion. Social Security income in payments, improper payments 
of 8 percent, that results in $4.8 billion. Oh, it's 10 percent 
of Medicare fee-for-service payments that are almost $40 
billion. That makes $137 billion that could go to meeting 
people who have needs, rather than to people who shouldn't be 
receiving those types of benefits, those that are gaining it 
improperly.
    And I guess that is what I wanted to focus on today because 
it seems as though I sit here in these committees, and maybe I 
woke up on the wrong side of the bed today or something, but 
our point here is to listen to you, to have you give us 
information, because you have real firsthand knowledge. If we 
had all the answers today, we could sit here and talk to 
ourselves. A lot of times, I have sat here and listened to 
Members of Congress preaching to you. It is our opportunity to 
learn from you today.
    So I want to learn. I have a bill that would reform the 
TANF program, because we have a lot of States gaming that 
program. They are using third-party dollars to match Federal 
dollars, which is allowing them to not have to spend their own 
funds on TANF spending. And then it also waives the work 
requirements. And that is very concerning to me. I think we are 
losing the integrity in the program, we are not helping 
individuals, we are not helping them by giving them work 
experience, which is critical to getting them out of poverty.
    And that is the biggest challenge that I find in front of 
us, that we do have States--while I would like to block grant 
everything to States, we have an oversight role here as Members 
of Congress. When States aren't doing their jobs and are gaming 
our systems, we have to change the law to make sure that 
doesn't happen, because we need the resources in place.
    Mr. Bragdon, I would like for you to speak specifically to 
work requirements, how that is beneficial to individuals. I 
would like for you to keep it a little bit encompassing as well 
the fact that so many times we talk about work requirements 
like it is a bad thing. It is not a bad thing, because we have 
seen it lift people out of generational poverty. And also I 
think all of the information and research shows us that 
Americans support it. It is very popular. And you have 
something in your written testimony that references that that I 
would like you to touch on.
    Mr. BRAGDON. Thank you very much for the question. I think 
Congressman Rangel, to quote him, he said poverty doesn't work. 
The corollary to that is work eliminates poverty. The research 
is very, very clear on that. And we are not just talking about 
working part time. The standard for these nondisabled, 
childless adults was either work 20 hours a week, train 20 
hours a week or volunteer 24 hours a month. And it was all 
about getting out into a work-like experience or training for 
permanent work, and that really is the key.
    I also want to just quickly respond to your comment about 
improper payments. You know, one of the things we are seeing 
States really do, and this started actually in Illinois, is 
stepping up and checking eligibility on a more realtime basis, 
to make sure that those individuals who are receiving benefits 
still were truly eligible, so that limited resources could be 
directed to the truly needy.
    And I think that, unfortunately, there have been a lot of 
Federal rule changes to encourage States to check it once and 
forget it almost. And what States need to do is make sure those 
resources are available to the truly needy and get at some of 
those improper payments you're talking about.
    Mrs. NOEM. So I have a different type of question. I come 
from a State that has very low unemployment. We need a lot of 
workers that we are willing to train. Frankly, we have great 
programs that will train these workers. Why won't people move 
for work? Or do we need programs where money is reprogrammed to 
help people transition to a place where they can get a good 
paying job?
    It seems to me people aren't as willing to do that. We 
advertise and advertise nationwide and can't get people to 
necessarily move for a good paying job.
    Mr. BRAGDON. I think it is something that should really be 
looked at.
    Mrs. NOEM. Do you think it is due to welfare programs being 
flawed?
    Mr. BRAGDON. I think that when there are incentives not to 
work, we know from the research people don't. And what we need 
to do is have those incentives aligned.
    Ms. GOLDEN. A big reason people are moving less has to do 
with the----
    Mr. REICHERT. The gentlelady's time has expired.
    Mr. Rice, you are recognized.
    Mr. RICE. Thank you, Mr. Chairman and Ranking Member, for 
holding this hearing today on reducing poverty and increasing 
opportunity.
    I have a little bit of experience in this. I helped to 
administrate a homeless shelter for 20 years in Myrtle Beach, 
South Carolina, where I am from. And Myrtle Beach is a really 
interesting spot, because it is a huge tourist destination, but 
it is also--it is kind of like the promised land in the Grapes 
of Wrath. Folks think that, if they come there, they can find a 
job and everything will be okay. And, you know, there are a lot 
of seasonal jobs there. And usually when people come in, they 
can find a job. But it is so expensive to make that transition 
that we had a lot of homeless people showing up. So we decided 
we would form our homeless shelter.
    And what we did to encourage people to go to work is we 
said, you can't stay here unless you are either working or 
looking for work. And we put a limited amount of time on how 
long they could stay and then we transitioned them into, you 
know, more permanent transitional housing and eventually they 
got on their feet, and we had a lot of successes. Not always 
successes, but we had a lot of successes.
    But ultimately--and I always tried to stay away from 
government money. I didn't want the strings. It made it too 
hard. You know, my job was to raise the money and to keep the 
books. And so I always tried to do it with private funds, with 
golf tournaments and those types of things, to raise our own 
money.
    But the only permanent solution to this is a job. That is 
it. We can sit here and--put the polka dot chart back up, 
please. We can sit here and talk about all these programs, but 
the truth is that, regardless of the fact that we, you know, 
everybody wants to make sure that those who need a hand up get 
it. But the truth is that if you rely on these government 
programs and you don't transition to work, you will always be 
in poverty. And it is likely your kids will always be in 
poverty and your grandkids. Transitioning to work ultimately is 
the only way out of that trap.
    America used to be called the Land of Opportunity, you 
know, where everybody had the opportunity to get a job. And 
unfortunately, we have kind of gotten away from that by 
expanding our government and creating all these new 
restrictions on business. And we stifled our economy. We 
shouldn't be surprised that our economy is only growing at 1.9 
percent. If we want to solve this problem, we have to get our 
economy growing again. And the only way to do that, in my 
opinion, is to make this country competitive.
    That is a little off topic. But you have to recognize that 
it is all interrelated. We won't make America competitive by 
growing these programs or putting more money in them. That will 
not do it. You can educate people from now until doomsday. You 
can get everybody a Ph.D. But if, when they get out of school, 
there is no job for them, you haven't really accomplished much.
    And for too many people coming out of college today, that 
is a fact. I have three sons that graduated from college in the 
last 10 years, and I have seen what they have gone through. And 
I am afraid they won't have the opportunity that I have had if 
we don't do something about this and get our economy going.
    Now, we have very limited resources. One of the things 
stifling our economy is this enormous debt we have, right? 
Economists almost universally agree, this debt is a real 
problem. So we have very limited resources. And we want to use 
those limited resources in the best way we can to lift as many 
people out of poverty as we can, right?
    Now who here on this panel can look at me with a straight 
face and tell me that that is the best way we can use our 
limited resources?
    Ms. GOLDEN. I think I would say the best way to use our 
limited resources is to focus on the youngest children and 
young adults.
    Mr. RICE. Okay, so let me ask you this, because I just 
asked the question. Do you think that that chart there, those 
80 means-tested Federal programs, is that the best way we can 
use the resources?
    Ms. GOLDEN. I can't see the details of the programs, but I 
know they include programs for veterans and the elderly and the 
disabled. And I would never say----
    Mr. RICE. I am not going to get a straight answer out of 
you. I only have 45 seconds.
    You know, when I first got out of--when I was running for 
Congress the first time, I went through this little parade in 
Florence, South Carolina. And the people at the end had little 
booths set up. I went from booth to booth just shaking people's 
hands. And I got to a booth, it was called the Benefits Bank. I 
thought it was a bank. I didn't know what it was. I started 
asking, well, where is your bank? What do you do? Oh, no, no, 
no, we are not a bank. We help people get all the benefits they 
are entitled to. I said, what do you mean? He said, well, there 
are so many State and Federal benefits and they are so 
intertwined that people can't figure out what they are entitled 
to, so we kind of help them, direct them to everything that 
they are entitled to.
    I told him, well, I am going to make it my job when I get 
in Congress to put you out of business. Because if that is the 
way we are doing our benefits, then that is not the most 
efficient way to lift people out of poverty.
    I yield back.
    Mr. REICHERT. Thank you, Mr. Rice.
    I would like to thank you, the panel, for being here today 
and providing us with your testimony. And it has taken almost 3 
hours now, so we appreciate your time here.
    I get a second chance now to talk since they sat me in this 
chair. So I have just a few things I would like to--some 
observations I would like to make.
    I was a hostage negotiator in the sheriff's office and the 
SWAT commander. It sounds like kind of a, you know, one of 
these things. But you have to know when to negotiate, right, 
and when to kick in the door.
    I always believe there is a place where we can find 
agreement. It doesn't matter if you are a Democrat or a 
Republican. I don't care. We can find something we agree on and 
that is the base where we spring from to provide other 
solutions and ideas that we can agree on for the betterment of 
the country and the people that live here.
    Today someone noted that this is the first hearing in 10 
years on welfare reform. So even though some of us may not have 
agreed with whether or not this chart was, you know, the 
panacea to solutions to welfare reform or homelessness or 
education, I think we can all agree that there is need for some 
change, that there is always room for improvement, that no 
matter what program we are working on, we are always 
continually moving forward with new ideas.
    I think you also heard everybody has a story. You have CPAs 
on this panel, you have businessmen and women and nurses and 
attorneys and doctors, and a sheriff. We all have different 
experiences that we shared with you. You have your experiences 
that you shared and those that you worked with. But we are all 
trying to do the right thing. We want to help people get back 
to work. We all care.
    We agree on early education and intervention, breaking the 
cycle. I was the lead detective in the Green River serial 
murder case, if you have heard of that case in Seattle in the 
1980s. We solved it in 2001. Fifty-one women were murdered. 
They came from homes, some of the homes like we talked about 
today, no education, alcohol and drug abuse, emotional, 
physical, and sexual abuse at home.
    That is where we can make a difference, in those homes, in 
those children's lives. And, as Ms. Golden said, also by 
working with the parents. It has to be in tandem in those 
cases, but early education, I think, in breaking this cycle and 
working toward prevention, as the Governor said, physical 
health, as Ms. VanZant has said, economic health and 
relationships is absolutely critical. Even those cops on the 
street have relationships with those young people on the 
streets and can save lives, even though we hear just the 
opposite in today's world. That is what police officers really 
want to do is help.
    And I know in working with your organizations, law 
enforcement is closely engaged in those relationships with 
churches, families and other social entities.
    We all agree there has to be a safety net. It is the 
trampoline effect that may not be working exactly right. At 
least that is what I heard from that safety net to the 
trampoline, to continue up in building your family.
    I really agree with the one size doesn't fit all, and I 
could go into a story that describes that, but I won't.
    So the bottom line is status quo is unacceptable. I heard 
that from the panel today, because too many people need help. 
There is a need for improvement and change. And we need to come 
together across this country to make that happen.
    So, again, I thank you for indulging me a few minutes to 
place that thought out there. I would like to thank our Members 
for being here today and for the passion and compassion that 
they showed.
    Usually, this is a little more rancorous experience, but I 
think we came together a little bit.
    Thank you for appearing before us today. And please be 
advised that Members may submit written questions to be 
answered later in writing. Those questions and your answers 
will be made part of the formal hearing record.
    With that, this Committee stands adjourned.
    [Whereupon, at 12:46 p.m., the Committee was adjourned.]
    [Submissions for the Record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  

                                 [all]
</pre></body></html>
